<html>
<title> - TERRORISM AND TRANSPORTATION SECURITY</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]



 
                 TERRORISM AND TRANSPORTATION SECURITY

=======================================================================


                                HEARING

                               before the

                            SUBCOMMITTEE ON 

                        TRANSPORTATION SECURITY

                                 of the

                     COMMITTEE ON HOMELAND SECURITY

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                           FEBRUARY 10, 2011

                               __________

                            Serial No. 112-2

                               __________

       Printed for the use of the Committee on Homeland Security
                                     

[GRAPHIC] [TIFF OMITTED] 


                                     

      Available via the World Wide Web: http://www.gpo.gov/fdsys/

                               __________





                  U.S. GOVERNMENT PRINTING OFFICE
72-213                    WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



                     COMMITTEE ON HOMELAND SECURITY

                   Peter T. King, New York, Chairman
Lamar Smith, Texas                   Bennie G. Thompson, Mississippi
Daniel E. Lungren, California        Loretta Sanchez, California
Mike Rogers, Alabama                 Jane Harman, California
Michael T. McCaul, Texas             Sheila Jackson Lee, Texas
Gus M. Bilirakis, Florida            Henry Cuellar, Texas
Paul C. Broun, Georgia               Yvette D. Clarke, New York
Candice S. Miller, Michigan          Laura Richardson, California
Tim Walberg, Michigan                Donna M. Christensen, U.S. Virgin 
Chip Cravaack, Minnesota                 Islands
Joe Walsh, Illinois                  Danny K. Davis, Illinois
Patrick Meehan, Pennsylvania         Brian Higgins, New York
Ben Quayle, Arizona                  Jackie Speier, California
Scott Rigell, Virginia               Cedric L. Richmond, Louisiana
Billy Long, Missouri                 Hansen Clarke, Michigan
Jeff Duncan, South Carolina          William R. Keating, Massachusetts
Tom Marino, Pennsylvania
Blake Farenthold, Texas
Mo Brooks, Alabama
            Michael J. Russell, Staff Director/Chief Counsel
                    Michael S. Twinchek, Chief Clerk
                I. Lanier Avant, Minority Staff Director
                                 ------                                

                SUBCOMMITTEE ON TRANSPORTATION SECURITY

                     Mike Rogers, Alabama, Chairman
Daniel E. Lungren, California        Sheila Jackson Lee, Texas
Tim Walberg, Michigan                Danny K. Davis, Illinois
Chip Cravaack, Minnesota             Jackie Speier, California
Joe Walsh, Illinois, Vice Chair      Cedric L. Richmond, Louisiana
Mo Brooks, Alabama                   Bennie G. Thompson, Mississippi 
Peter T. King, New York (Ex              (Ex Officio)
    Officio)
                     Amanda Parikh, Staff Director
                   Natalie Nixon, Deputy Chief Clerk
            Thomas McDaniels, Minority Subcommittee Director



                            C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable Mike Rogers, a Representative in Congress From the 
  State of Alabama, and Chairman, Subcommittee on Transportation 
  Security.......................................................     1
The Honorable Sheila Jackson Lee, a Representative in Congress 
  From the State of Texas, and Ranking Member, Subcommittee on 
  Transportation Security........................................     3
The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Ranking Member, Committee on 
  Homeland Security..............................................     5

                               Witnesses

Mr. John S. Pistole, Administrator, Transportation Security 
  Administration, Department of Homeland Security:
  Oral Statement.................................................     6
  Prepared Statement.............................................     8

                                Appendix

Questions From Ranking Member Sheila Jackson Lee for John S. 
  Pistole........................................................    39


                 TERRORISM AND TRANSPORTATION SECURITY

                              ----------                              


                      Thursday, February 10, 2011

             U.S. House of Representatives,
           Subcommittee on Transportation Security,
                            Committee on Homeland Security,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:03 a.m., in 
Room 311, Cannon House Office Building, Hon. Mike Rogers 
[Chairman of the subcommittee] presiding.
    Present: Representatives Rogers, Lungren, Cravaack, Walsh, 
Brooks, Jackson Lee, Thompson, Davis, Speier, and Richmond.
    Mr. Rogers [presiding]. This meeting of the Homeland 
Security Committee--Subcommittee on Transportation and Security 
will come to order. The subcommittee is meeting today to hear 
testimony from the administrator of the Transportation and 
Security Administration, Mr. John Pistole, on his agency's 
efforts to stop terrorists from carrying out attacks against 
our Nation's transportation systems.
    I would like to welcome everybody to this first 
subcommittee meeting of the 112th Congress, and I want to thank 
Mr. Pistole for joining us. I know it is going to be a very 
informative effort.
    I am pleased to be joined on the subcommittee by Ranking 
Member Ms. Sheila Jackson Lee, of Texas. The Ranking Member and 
I have had a strong working relationship, and I look forward to 
continuing that in this Congress to make TSA more effective in 
concert with her.
    The topic of this hearing is ``Terrorism and Transportation 
Security.'' I would like to welcome our witness, TSA 
Administrator John Pistole, and thank him for being here today.
    We look forward to your testimony and greatly appreciate 
your time.
    Let me first state--first and foremost--that TSA is a 
counterterrorism agency and it must maintain that mission as 
its primary focus. If there are programs or offices within the 
TSA that do not directly support that primary mission or could 
operate more efficiently this subcommittee will look closely to 
see where taxpayer dollars could be better spent at TSA to 
achieve a greater level of security.
    It is also important to state at the outset that regardless 
of what other committees in the House may want you to believe, 
this subcommittee is the subcommittee with primary jurisdiction 
over all of TSA. In this role we plan to exercise vigorous 
oversight of the agency and the security of all transportation 
modes, including aviation, cargo, rail, mass transit, trucking, 
and pipelines.
    Where TSA is succeeding we should applaud them; where they 
are struggling to address vulnerabilities or to work with 
stakeholders we should help them find new solutions. We can all 
make that the safe--we can all agree that the safe and secure 
flow of passengers and commerce through all modes of 
transportation is critical to our Nation's economy. TSA is 
obviously a vital element to ensure this happens within a 
framework that includes many stakeholders.
    In many ways, post-9/11 security has been a series of 
reactive tactics and strategies by the TSA. Existing practices 
would benefit from a proactive, intelligence-based decision-
making process.
    Mr. Pistole, we have discussed your interest in this area 
and I look forward to strengthening these type of programs in 
TSA. Also, at times TSA's efforts are seen to be 
counterproductive to industry or lack coordination with 
industry. I look forward to examining ways to bring the best 
practices of the industry and TSA together for better security 
and safer transit.
    I want to emphasize that this subcommittee will examine how 
TSA spends the tax dollars. Suffice it to say, as with any 
large Government agency, there is waste at TSA. Over the last 
few months there have been a series of high-profile media 
stories on this issue.
    I have met with GAO and the Department of Homeland Security 
IG to discuss TSA's acquisitions and spending practices and 
plan to hold hearings on this issue in the near future. I 
believe we should not automatically separate National security 
from fiscal security. I believe TSA and the taxpayers could 
benefit from procurement and acquisition reforms and I plan to 
pursue them.
    Finally, it seems there is not a day that goes by that TSA 
isn't in the news-making headlines. Believe me, in this 
business we are in that can be both a good and a bad thing. 
Just last Friday it was announced that TSA would allow its 
employees to vote on a collective bargaining framework that 
could lead to the unionization of TSA employees.
    You and I spoke by phone Friday before the decision was 
made public, and I continue to appreciate your willingness to 
keep us informed before we read these type of things in the 
newspapers.
    With regard to collective bargaining rights for TSA 
employees, I expressed my concern about it to you before and 
will do so again today. Because of the potential impact of this 
decision I am going to allow a lot of extra time for you to 
fully explain your decision-making on collective bargaining 
framework and for our Members to ask questions about it.
    In sum, we must be vigilant against the terrorists focused 
on attacking us, and specifically on attacks aimed at our 
transportation systems. I have met with Administrator Pistole 
on multiple occasions since becoming Chairman. I am very 
pleased with the fact that he has significant law enforcement 
and counterterrorism experience. I believe he is the right 
person for the difficult job and look forward to working with 
him on transportation security.
    Mr. Pistole, thank you for your service for our Nation and 
throughout your career, and thank you for taking time out of 
your busy schedule to be with us today.
    I now want to recognize the Ranking Member of the 
subcommittee, the lady from Texas, Ms. Jackson Lee, for 5 
minutes for an opening statement.
    Ms. Jackson Lee. Good morning.
    Mr. Chairman, thank you so very much. I agree with you, we 
want to thank Administrator Pistole for his long years of 
service.
    I am delighted to be joined this morning by the Ranking 
Member of the Full Committee, Mr. Thompson of Mississippi, and 
to acknowledge our new Members, Mr. Davis of Illinois, Ms. 
Speier of California, and Mr. Richmond of Louisiana. We are 
delighted to have the opportunity to serve the American people 
on this particularly important committee.
    So Mr. Chairman, let me first congratulate you on your 
Chairmanship of the Transportation Security Subcommittee, and 
let me say that I look forward to working with you, as we have 
done before, during this Congress, and as we work together to 
ensure that the Transportation Security Administration has the 
tools and resources it needs to secure all modes of 
transportation, including aviation, mass transit, passenger or 
freight rail, highways, and pipelines; but additionally, to 
make note of the fact that I think every American, Mr. 
Chairman, has used the mode of transportation that we have 
responsibility over at some point in their life. It is a large 
and looming challenge to ensure the transportation modes of 
this Nation, and I thank you for the opportunity to work with 
you.
    Let me also welcome, as I indicated again, the new Members 
on both sides of the aisle, and I look forward to working with 
all of them.
    TSA's scope of responsibility is broad and its challenge in 
securing transportation against terrorist attack is critical to 
the Nation's overall homeland security efforts. Over the last 4 
years, during my Chairmanship of this subcommittee, we 
evaluated cargo security on passenger planes, passenger and 
baggage screening technology and processes, security at foreign 
repair stations, general aviation security, the Registered 
Traveler program, and the administration of TSA's program for 
surface transportation security.
    Might I add that we introduced, along with Chairman 
Thompson, a major transportation security legislative 
initiative, H.R. 2200 of the last Congress, focused on the 
growing professional development of our members of the TSA 
team, and a number of other very important security reforms.
    I hope, Mr. Chairman, we will have an opportunity to look 
at that again and work together with you.
    Mr. Chairman, I know from early discussions with you that 
we share the same commitment to securing our Nation's 
transportation systems.
    To Administrator Pistole, I welcome you again to the 
subcommittee and I look forward to your testimony. Since you 
were confirmed nearly 8 months ago you have been presented with 
myriad of challenges, from explosive ships from Yemen to 
enhanced pat-down screenings at Thanksgiving, and through it 
all you have shown leadership and determination in trying to 
get it right in addressing threats and securing all 
transportation modes.
    I specifically remember engaging with you during the 
transportation enhancement process during Thanksgiving and 
Christmas, and actually going out to my airport and spending 3 
days during the Thanksgiving holiday watching professional TSA 
officers begin their work under very difficult circumstances. 
We have commented on notice; we have commented on the 
sensitivity of our particular traveling public, and I hope we 
can work through those issues.
    Recently you have made two critical decisions that I must 
commend you for. First, I agree and support your decision not 
to expand screening partnership program for airports to opt out 
of using TSA screeners in order to contract with private 
screening firms.
    Why should we go back? We went forward after 9/11. There is 
no reason, seemingly, to retrace those steps again. But we must 
also ensure that we improve all of the procedures and processes 
of the TSA.
    As we look to mitigating the current and future threats to 
aviation, as I said, let us not forget the past. On that 
fateful day of September 11, 2001, four of the passenger 
screening checkpoints transited by the 19 hijackers were 
operated by three different security firms contracted by air 
carriers at the three airports where the terrorists departed: 
Boston Logan, Newark Liberty, and Washington Dulles. Citing 
serious vulnerabilities with this process, Congress wisely 
decided to Federalize the screening workforce, and this TSA 
workforce has subsequently played a critical role as one of the 
most important security layers for securing commercial 
aviation.
    With consistent, intelligence-based administration of TSA's 
screening programs we have hardened aviation significantly 
against terrorist attack, and although TSA has managed a small 
group of SPP airports, including San Francisco, in the district 
of our distinguished colleague from California, Ms. Speier, we 
must be careful not to institute a system of hodgepodge 
screening companies working at different airports across the 
Nation, and I appreciate you looking at this carefully.
    I also commend your decision to extend collective 
bargaining rights to transportation security officers. Now, 
just as it is with other security professionals at Customs and 
Border Protection and the Federal Protective Service, TSOs will 
have input on workplace and performance appraisals.
    The Chairman of last Congress, Mr. Thompson, the Ranking 
Member now, and I worked very hard on this issue. Just like 
with those two agencies and countless other law enforcement 
agencies across this Nation, this collective bargaining will in 
no way negatively impact security, but in fact will improve the 
morale and performance of our hardworking TSOs.
    I know that the Chairman and I may disagree on some of 
these issues, but I also know that we have a great deal in 
common. We have already discussed the Moscow airport, and I 
look forward to those hearings, particularly as we saw in the 
last Congress the Mumbai attacks, there is certainly a lot for 
us to deal with.
    The Chairman and I have also discussed the importance of 
continuing where we left off in the last Congress and focusing 
on securing mass transit and other surface modes of 
transportation. Again, recent history in Russia, Madrid, and 
Spain have shown that surface transportation is a terrorist 
target and we need to be prepared.
    Mr. Chairman, I thank you again for your commitment to 
working with this side of the aisle so that we can approach 
these issues in a comprehensive manner. This is going to be a 
good year, and I yield back.
    Mr. Rogers. I agree with the gentlelady. We are going to 
have a great partnership and do some good work.
    The Chairman now recognizes the Ranking Member of the Full 
Committee, the gentleman from Mississippi, Mr. Thompson, for a 
statement.
    Mr. Thompson. Thank you, Chairman Rogers, for holding this 
important hearing. I also congratulate you on your Chairmanship 
and I look forward to joining you and Ranking Member Jackson 
Lee in evaluating critical transportation security issues 
during the 112th Congress.
    Additionally, I would like to welcome Mr. Pistole to his 
first hearing in Congress. We have talked on a number of 
occasions.
    I absolutely join my colleagues in thanking you for the 
outreach that you have done since you have been administrator 
on keeping us informed. Please keep it up.
    Also, let me say that your decision to grant collective 
bargaining rights to the transportation security officers at 
TSA is the right thing. As you know, I, along with 
Representative Lowey and Ranking Member Jackson Lee, have been 
championing collective bargaining rights for TSOs for several 
years. As proven by the performance of other Federal security 
officers, collective bargaining does not diminish our security; 
in fact, I have written you and continue to believe collective 
bargaining can improve workforce morale and productivity, and 
this will positively impact TSA in fulfilling its mission to 
secure our transportation system.
    Too often, we have been inundated with TSOs concerning poor 
workplace conditions, vague and inconsistent performance 
appraisal processes, and ineffective training programs and 
practices. Further, my top concern continues to be affording 
TSOs the same benefits and personnel standards as other 
employees in the Federal pay system, and I look forward to 
continuing to work with you to implement this new collective 
bargaining framework so that all the key issues are addressed.
    Mr. Chairman, last Congress, in our oversight activities of 
TSA's program, we held several hearings addressing critical 
transportation security issues. I have taken particular 
interest in the deployment of advanced imaging technology 
machines at our Nation's airports and have urged TSA to 
implement privacy and efficiency safeguards to accompany the 
use of this technology.
    I know you have heard these concerns and I look forward to 
reviewing the new pilot program for the automated targeting 
recognition software currently being tested, which should 
reduce privacy concerns raised about the intrusive nature of 
the AIT images. Once the testing of this new software to 
accompany the AIT machines is complete I will call on the 
Department to conduct an updated civil liberties impact 
assessment on the new system. As I have said numerous times, 
millions of taxpayers' dollars have been spent on this 
technology and we need to be sure that it is deployed in a 
risk-based manner and that TSA personnel are sufficiently 
trained to harness this technology.
    We also have had many conversations about TSA's need to 
work collaboratively with other agencies and stakeholders. I 
hope you continue to strengthen the agency's relationships with 
stakeholders, particularly in the area of cargo security and 
cargo screening technology.
    Last but just as importantly, I would like to stress the 
importance of adequately addressing threats within the surface 
transportation community. It is imperative that TSA share with 
Congress the shortcomings in resources available to address 
threats across surface and mass transportation modes. I look 
forward to learning more about the specific steps TSA has taken 
to focus resources toward surface and mass transportation modes 
of transportation at today's hearing.
    With that, Mr. Chairman, I yield back the balance of my 
time.
    Mr. Rogers. Thank you, Mr. Thompson.
    Other Members of the committee are advised that their 
opening statement may be submitted for the record. Now we are 
very pleased to have the distinguished guest with us today on 
this important topic.
    We will remind you, Mr. Pistole, that your entire statement 
will be submitted for the record, and you are now recognized 
for 5 minutes to summarize it.

  STATEMENT OF JOHN S. PISTOLE, ADMINISTRATOR, TRANSPORTATION 
    SECURITY ADMINISTRATION, DEPARTMENT OF HOMELAND SECURITY

    Mr. Pistole. Well, thank you very much, Chairman Rogers, 
and Ranking Member Jackson Lee.
    Ranking Member Thompson, good to see you.
    To the new Members of the subcommittee, welcome to the 
subcommittee.
    I am also pleased to be here today to discuss with you the 
Transportation and Security Administration, our operations, our 
mission, and the terrorism threat that our country faces, and 
of course the men and women of TSA confront every day.
    TSA, of course, was created in November 2001 with a 
compelling mandate to prevent terrorist attacks like 9/11 from 
happening again. So began the not-yet 10-year history of this 
organization of dedicated men and women. As Secretary 
Napolitano and Director Leiter testified yesterday, ``We face a 
determined enemy which constantly evolves its tactics and 
techniques, and as we have seen the threat is real.''
    TSA plays a critical role in protecting the Nation's 
transportation network as part of the U.S. law enforcement and 
intelligence community counterterrorism efforts. It is our 
responsibility to stay ahead of the terrorist threat through 
risk-based, intelligence-driven security measures. With our 
partners here and abroad we utilize a layered, interconnected 
system that gives us the best opportunity of detecting and 
deterring threats, as we saw with the Yemen cargo plot.
    So two of the best tools we employ in our effort to combat 
terrorists are accurate, timely intelligence and partnerships. 
One of my first initiatives at TSA last summer was to expand 
security clearance to a greater number of TSA employees in the 
field. This ensures that our explosive experts, our supervisory 
TSOs, or transportation security officers, Federal air 
marshals, and behavior detection officers have the information 
they need to better confront those who would do us harm.
    Another key tool is partnerships with other National 
security agencies and foreign counterparts, State and local law 
enforcement agencies, the business community--especially 
airlines and air cargo carriers--and of course, the American 
people. We have seen, going to back to Christmas day 2009 and 
the air cargo plot I mentioned, that concealment and design of 
explosives are being done in ways that challenge not only our 
social norms but our detection capabilities. We have expanded 
the use of swabbing for explosive trace detection, enhanced our 
pat-down procedures, and will continue deploying advanced 
imaging technology.
    We are always seeking the proper balance between security 
and privacy. In that regard, I am pleased to report that we 
have begun field testing of the Automatic Target Recognition, 
ATR, software for our AIT machines, currently being field 
tested in Las Vegas, Atlanta, and Washington National airports.
    This software could eventually eliminate the need for TSA 
to review passenger images. Instead, a generic icon would 
highlight the areas that require additional screening, thereby 
addressing the privacy issues that have been raised.
    Even with the best technology, an engaged and empowered 
workforce is vital, and so that is last week--my decision that 
our security officers, the TSOs, will have the right to vote 
for or against union representation in a fair and transparent 
process consistent with the FLRA order. I also laid out 
specific terms for a limited, clearly defined framework 
consistent with TSA's security mission should TSOs elect a 
union. This framework, which is unique in the U.S. Government, 
preserves TSA's capability and flexibility to respond to 
evolving threats.
    Let me state clearly: TSA's priority is the safety and 
security of the traveling public--all 628 million of them in 
2009 and again in 2010. As administrator I am committed to 
evolving TSA into a more agile, high-performing organization 
that can meet the security threats of today and the future.
    As I mentioned earlier, TSA's ability to push out 
intelligence information to our front-line workforce and 
quickly change procedures based on threat and intelligence is 
paramount to effective security--all factors, along with cost, 
in my decision to not expand the privatized screening program 
beyond the 16 current airports absent clear and compelling 
reasons. Going forward, I believe we in TSA must use more of a 
risk-based approach to the checkpoint of the future using 
common sense informed by intelligence rather than a one size 
fits all approach for passenger screening.
    With that, I look forward to working with this subcommittee 
as we develop and implement the security solutions to help 
mitigate a dynamic and changing threat landscape.
    Thank you, Mr. Chairman.
    [The statement of Mr. Pistole follows:]
                 Prepared Statement of John S. Pistole
                           February 10, 2011
    Good morning Chairman Rogers, Ranking Member Jackson Lee, and 
distinguished Members of the subcommittee. I appreciate the opportunity 
to appear before you and this subcommittee today to discuss the 
Transportation Security Administration (TSA). TSA's mission is to 
prevent terrorist attacks and reduce the vulnerability of the Nation's 
transportation system to terrorism. In meeting this mission, TSA's goal 
at all times is to maximize transportation protection and security in 
response to the evolving terrorist threat while protecting passengers' 
privacy and facilitating the flow of legal commerce.
    In the aviation domain, TSA has implemented an effective and 
dynamic security system consisting of multiple layers of risk-based 
measures, working in concert with our international, Federal, State, 
local, Tribal, territorial, and private sector partners. Our security 
approach begins well before a traveler arrives at an airport, with our 
intelligence and law enforcement partners working to detect, deter, and 
prevent terrorist plots before they happen, and continues all the way 
through the flight, providing security throughout a passenger's trip--
not just at screening checkpoints.
    In the surface arena, we continue to work with our partners to 
reduce vulnerabilities and strengthen resilience against a terrorist 
attack. We are working to direct grants to the most at-risk transit 
properties. Our Surface Security Inspectors are assisting with the 
development of specific security programs. And our Visible Intermodal 
Prevention and Response (VIPR) teams are being deployed in thousands of 
mass transit, maritime, and highway security initiatives.
    Despite all our efforts and advances in intelligence, technology, 
and screening processes, the threat to the U.S. transportation sector 
remains high. We face a committed enemy who continues to collect its 
own intelligence against our security measures, seeking to exploit 
vulnerabilities in the system. As a result, we must continue to work to 
stay ahead of this constantly evolving threat.
                 a persistent threat to civil aviation
    For more than two decades, al-Qaeda and other terrorist 
organizations have sought to do harm to this country, and many of their 
plots against the United States have focused on the aviation system. It 
is clear that terrorist intent to strike at American targets has not 
diminished. We have continued to watch the threat evolve from checked 
baggage to hand baggage to non-metallic devices hidden on the body to 
air cargo. Non-metallic explosive devices are now the foremost threat 
to passenger airlines and it is imperative we maintain and enhance our 
capability to detect these threats.
    One of the most salient public examples of the on-going terrorist 
threat is the bombing plot by al-Qaeda in the Arabian Peninsula, which 
resulted in the December 25, 2009, alleged attempt by Umar Farouk 
Abdulmutallab to blow up an American airplane over the United States 
using a non-metallic explosive device that was not and could not have 
been discovered by a metal detector. Also, in October 2010, al-Qaeda in 
the Arabian Peninsula attempted to destroy two airplanes in flight 
using artfully concealed explosive devices hidden in cargo that 
highlighted the need to strengthen security across the international 
supply chain.
    I firmly believe our best defense against these and other terrorist 
threats remains a risk-based, layered security approach that utilizes a 
range of measures both seen and unseen. This approach includes using 
Advanced Imaging Technology (AIT) and pat-downs to enhance and 
supplement the efforts of law enforcement, intelligence, and terrorist 
watchlist checks, strengthening supply chain security, and increasing 
international collaboration.
                 deploying advanced imaging technology
    After analyzing the latest intelligence and studying available 
technologies and other processes, TSA determined that AIT is the most 
effective method to detect both metallic and non-metallic threat items 
concealed on passengers while maintaining efficient checkpoint 
screening operations. Our work with AIT began over 3 years ago, and has 
included testing and evaluation in both the laboratory and in airports. 
AIT represents the very latest in passenger screening technological 
advancement and addresses a broad range of threats. TSA tested and 
piloted the use of AIT at several airports around the country prior to 
the December 2009 attempted attack, and as a consequence, the agency 
was able to accelerate deployment of AIT following the incident to 
enable us to quickly and effectively detect metallic and non-metallic 
threats. Our extensive experience with AIT has made us the world leader 
in its implementation in the transportation environment.
    According to TSA statistics, approximately 1 percent of passengers 
selected for AIT screening have opted out of AIT screening. Moreover, 
independent polls reflect that the traveling public supports these 
measures--for example, a recent CBS poll found four in five people 
approve of the use of AIT for screening, and a recent Gallup poll 
reported 78 percent of air travelers approve of the use of AIT at U.S. 
airports.
AIT is a Safe and Reliable Screening Technology
    AIT machines are safe, efficient, and have built-in safeguards to 
protect passenger privacy. TSA requires its technology to comply with 
consensus-based scientific safety standards administered by the Health 
Physics Society and accredited by the American National Standards 
Institute.
    The radiation dose from backscatter AIT machines has been 
independently evaluated by the Food and Drug Administration, the 
National Institute of Standards and Technology, and the Johns Hopkins 
University Applied Physics Laboratory, all of which have affirmed that 
the systems comply with established standards for safety. Public 
versions of our safety testing reports are available on TSA's website 
at www.tsa.gov.
    A single screening using backscatter technology produces a 
radiation dose equivalent to approximately 2 minutes of flying on an 
airplane at altitude. Millimeter wave technology does not emit ionizing 
radiation and instead uses radio frequency energy. The energy projected 
by these units is a fraction of other commercially approved radio 
frequency devices, such as cell phones, two-way radios, and blue tooth 
devices.
TSA is Committed to Protecting Passenger Privacy
    TSA has strict safeguards to protect passenger privacy and ensure 
anonymity. TSA's AIT machines deployed at airports do not store or 
print passenger images, and images are maintained on the monitor only 
for as long as it takes to resolve any anomalies. Images from TSA 
screening operations have not been and are not retained for any 
purpose. Additionally, the officer reviewing the image is unable to see 
the individual undergoing screening, and the officer screening the 
passenger cannot see the image--the image is completely disassociated 
with the passenger. Furthermore, AIT machines do not produce 
photographic quality images that would permit recognition of the person 
screened. TSA also applies facial blurs to both the millimeter wave and 
backscatter technologies.
    The Chief Privacy Officer of the Department of Homeland Security 
(DHS) has conducted a Privacy Impact Assessment of the AIT machines and 
updated those assessments as the program has developed. The full 
results of that assessment are available to the public on the Privacy 
Office's website at www.dhs.gov/privacy. TSA's screening protocols 
ensure that such screening does not unreasonably intrude on a 
passenger's reasonable expectation of privacy in the airport 
environment and that the public's privacy concerns related to AIT 
screening are adequately addressed.
Automatic Target Recognition (ATR) To Further Address Privacy Concerns
    While we are rapidly deploying AIT machines to U.S. airports, we 
also are exploring enhancements to this technology to further address 
privacy issues. To that end, we are field testing auto-detection 
software, referred to as Automatic Target Recognition (ATR), which 
enhances passenger privacy by eliminating passenger-specific images and 
instead highlights the area with a detected anomaly on a generic 
outline of a person. Pat downs used to resolve such anomalies will be 
limited to the areas of the body displaying an alarm unless the number 
of anomalies is sufficient to require a full-body pat down. If no 
anomalies are detected, the screen displays the word ``OK'' with no 
icon.
    As with current AIT software, ATR-enabled units deployed at 
airports are not capable of storing or printing the generic image. This 
software eliminates the need for a remotely located TSO to view 
passenger images in a separate room because no actual image of the 
passenger is produced, reducing associated staffing and construction 
costs. ATR software represents a substantial step forward in addressing 
passenger privacy concerns, while maintaining TSA-established standards 
for detection. TSA plans to continually update and test enhanced 
versions of the software in order to ensure technology with the highest 
detection standards is in use.
                     employing effective pat-downs
    TSA operates in a high-threat environment. Terrorists look for gaps 
or exceptions to exploit. They are studying our security measures and 
will exploit our social norms to their advantage. The device used in 
the December 25, 2009, bombing attempt illustrates this fact; it was 
cleverly constructed and intentionally hidden on a very sensitive part 
of the individual's body to avert detection by officials in Amsterdam. 
As a result, the lives of almost 300 passengers and crew were put at 
risk. My responsibility as TSA Administrator is to put in place 
reasonable security measures to counteract this and other types of 
threats.
    Upon joining TSA in July 2010, I looked at the agency's efforts to 
address the threat posed by Umar Farouk Abdulmutallab's bombing attempt 
on December 25, 2009. I also considered several reports from the 
Government Accountability Office (GAO), DHS's Office of Inspector 
General (IG), and TSA's Office of Inspection, all of whom have 
performed a significant amount of covert testing of TSA's operations. 
One of the most significant findings of the covert testing was that 
pat-downs were not thorough enough. The results of this repeated covert 
testing taken with the latest intelligence led to the conclusion that 
TSA needed to modify its pat-down procedures.
    TSA will continue to work with the DHS Office for Civil Rights and 
Civil Liberties and the DHS Privacy Office to ensure that TSA's pat-
down procedures do not unduly impinge upon passengers' rights and 
liberties, and we will regularly reassess screening procedures to 
ensure they are set at an appropriate level to mitigate threats while 
protecting the passengers' privacy.
                       implementing secure flight
    As of November 23, 2010, TSA's Secure Flight program became fully 
operational for all covered flights operating to, from, and within the 
United States, fulfilling a key 9/11 Commission recommendation and 
increasing security by having TSA, rather than airlines, screen every 
passenger against the latest intelligence before a boarding pass is 
issued. Since its implementation, Secure Flight has demonstrated the 
value of uniform, consistent watch list matching through improved 
identification of matches. Continuous Secure Flight vetting begins 72 
hours in advance of flight and continues until the flight departs, 
consistently providing insight into potential threats and enabling TSA 
to plan field efforts to counter any threat accordingly.
    Collectively, there are 202 aircraft operators using Secure Flight, 
representing 100 percent of all aircraft operators covered by the 
Secure Flight Final Rule.
                      advancing air cargo security
    TSA also continues to take aggressive action to improve the 
security of air cargo throughout the global air cargo network. In 
response to the October 2010 attempted bombings of cargo aircraft bound 
for the United States, TSA has issued security requirements restricting 
the transport of printer and toner cartridges, prohibiting elevated 
risk cargo from transport on passenger aircraft, requiring other cargo 
to undergo screening, and establishing requirements for handling 
international mail. In January 2011, TSA issued a proposed air carrier 
security program change to increase security measures for air cargo, 
most notably, to require 100 percent screening of inbound international 
cargo transported on passenger aircraft by December 31, 2011. TSA 
expects to finalize the programs in Spring 2011 after evaluating 
industry comments.
    Additionally, as part of the DHS Air Cargo Security Working Group 
established by Secretary Napolitano, TSA is taking a leadership role in 
partnering with industry and other Federal Government partners to 
develop strategies to strengthen air cargo security while facilitating 
the flow of commerce. TSA is also working closely with U.S. Customs and 
Border Protection and the air cargo industry to receive and process 
pre-departure, advanced air cargo information from shippers earlier 
than is currently required so that we can increase the focus of our 
screening resources on high-threat cargo.
            reducing surface transportation vulnerabilities
    The Transportation Security Administration works with its partners 
in securing the surface transportation networks of the United States, 
working closely with transit agencies and State and local officials to 
assist them in defining and meeting their security requirements. The 
Transit Security Grant Program (TSGP) is a vital tool by which we 
enable and empower transit agency security providers to improve their 
practices. TSA works closely with the FEMA Grants Program Division to 
apply funding to projects with the most effective risk mitigation to 
the most at-risk transit properties. In 2010, the TSGP provided $273.4 
million to the transit industry and a total of $1.6 billion since 2006. 
Similar, but smaller grant programs have supported freight rail, over-
the-road bus, and trucking programs.
    TSA Surface Inspectors engage in all surface modes with activities 
ranging from inspecting rail yards and hazmat conveyances for 
regulatory compliance to assisting in the development of security and 
incident management plans. In the transit mode, the Surface Security 
Inspector program improves security by conducting field visits to 
assess the baseline of security and subsequently developing action 
plans and assisting properties and agencies to improve their specific 
security programs. One such security program is the deployment of 
explosives detection canines, which are provided both through TSGP 
grant funding and appropriated TSA funds. TSA and the Department's 
Science and Technology Directorate are also partnering with Auburn 
University's well-regarded canine program to enhance the effectiveness 
of explosives detection canine teams used by TSA in protecting aviation 
and surface transportation by developing additional detection 
techniques and we welcome the opportunity to further brief the 
subcommittee on these efforts.
    TSA's VIPR teams are designed to enhance security by working in 
mass transit, aviation, rail, and other transportation modes alongside 
local law enforcement agencies during specific times or events. VIPR 
teams are comprised of personnel with expertise in inspection, behavior 
detection, security screening, and law enforcement, and enhance TSA's 
ability to leverage a variety of resources quickly to increase security 
in any mode of transportation anywhere in the country. A component of 
TSA's nimble, unpredictable approach to security, TSA enhanced surface 
transportation security by conducting over 3,750 VIPR operations in 
2010 in the various modes of surface transportation. VIPR operational 
plans are developed with a risk-based methodology, in conjunction with 
local transportation security stakeholders, and conducted jointly by 
TSA, local law enforcement, and transportation security resources.
                       twic program advancements
    In the last 2 years, over 1.6 million workers have enrolled in the 
Transportation Worker Identification Credential (TWIC) program. The 
TWIC program includes a comprehensive security threat assessment, and 
the issuance of biometric credentials, which are now required to enter 
maritime facilities. TSA has processed 50,000 appeals and waiver 
requests, and continues to improve the adjudication process to shorten 
the time it takes to complete the security threat assessment process. 
After working through many challenges, TSA is concluding the TWIC 
Reader Pilot Program, wrapping up formal data collection, and working 
on the report to Congress. We continue to coordinate these efforts with 
the U.S. Coast Guard to ensure a high level of security and operational 
effectiveness.
                  enhancing international cooperation
    The U.S. Government fully recognizes that it takes a concerted, 
global effort to protect the world's interconnected transportation 
networks. The security of U.S. civil aviation is intimately connected 
to the security of international civil aviation system writ large, and 
is directly affected by efforts that extend beyond our borders. For 
that reason, Secretary Napolitano and I have embarked on an aggressive 
outreach initiative to enhance civil aviation security standards and 
practices worldwide.
    Immediately following the attempted bombing of a U.S.-bound 
Northwest Airlines flight on December 25, 2009, Secretary Napolitano 
began working with the International Civil Aviation Organization (ICAO) 
on an unprecedented global initiative to strengthen the international 
aviation system against the evolving threats posed by terrorists, 
working in multilateral and bilateral contexts with governments as well 
as industry. Secretary Napolitano has participated in regional aviation 
security summits in Europe, South America, the Caribbean, Asia, and the 
Middle East, bringing about historic consensus with her international 
colleagues to strengthen the civil aviation system through improved 
information sharing, cooperation on technological development and 
enhanced aviation security standards.
    These efforts culminated at the ICAO Triennial Assembly in October 
2010, where the Assembly adopted the Declaration on Aviation Security, 
which highlights the commitment of the international community to 
collaborate in the effort to enhance aviation security at the 
international level. The extraordinary global collaboration 
demonstrated by the nearly 190 ICAO countries during the ICAO General 
Assembly in Montreal has helped to advance international security 
standards, broaden existing cooperation mechanisms and information 
exchange, and encourage the use of technology in the aviation security 
environment.
    Specifically, following the Assembly, the ICAO Council adopted 
Amendment 12 to Annex 17 to the International Convention on Civil 
Aviation (also known as the Chicago Convention), which governs 
international civil aviation security. These amendments will tighten 
the existing international standards to account for new and emerging 
threats, and also establish enhanced standards for air cargo security. 
TSA will continue its work to further enhance international security 
standards vis-a-vis evolving threats and risk of unlawful interference 
with civil aviation.
    Further, throughout 2010, DHS and TSA played a significant role in 
developing the ICAO Comprehensive Aviation Security Strategy, also 
adopted at the ICAO Assembly in October 2010, which sets the course for 
ICAO's aviation security efforts over the next 6 years. This strategy 
establishes seven key focus areas, which are built upon DHS/TSA's 
strategic goals for the enhancement of international aviation. These 
include addressing new and emerging threats; promoting innovative, 
effective and efficient security approaches; promoting the sharing of 
information amongst member states to raise awareness of threats and 
security trends relevant to civil aviation operations; promoting global 
compliance and establishing sustainable aviation security oversight; 
improving human factors and security culture; promoting the development 
of mutual recognition for aviation security processes; and emphasizing 
the importance of security.
    Lastly, senior DHS leadership from the Private Sector Office, TSA 
and CBP began collaboratively engaging with the aviation industry in a 
dialogue about security changes, a practice that we will continue 
regularly this year.
Continuing Engagement
    TSA is actively involved in various bilateral Transportation and 
Aviation Security Working Groups, and is an active participant in 
regional and multilateral organizations such as the G8, the Asia-
Pacific Economic Cooperation, the Quadrilateral Group on Transportation 
Security, and the ICAO Regional Offices. Furthermore, TSA has been 
actively reaching out to other regional organizations such as the Latin 
American Civil Aviation Conference, the Arab Civil Aviation Conference, 
the Central American Corporation for Air Navigation Services, and the 
African Civil Aviation Conference and the African Union. Through these 
forums, TSA is able to encourage and assist in the enhancement of 
international aviation security standards and practices, and to better 
understand the legal, political, cultural, geographic, and operational 
issues that may affect our foreign partners' ability to address certain 
aviation security. Finally, this past November, TSA hosted an 
international policy summit on AIT at TSA's Systems Integration 
Facility, which brought together key policy makers and experts from 
over 30 countries and 11 industry associations to discuss and exchange 
views on AIT. Discussions centered on legal, policy, privacy, 
operational, and health, safety and science aspects of AIT and the 
deployment of such screening capability at airports in different 
locations around the world.
    TSA, in conjunction with the Department of State, is also working 
with foreign governments to gain their acceptance of Federal Air 
Marshals on international flights to and from more countries. This 
expansion of covered flights will further enhance aviation security for 
passengers and aircraft.
                               conclusion
    I want to thank the subcommittee for its continued assistance to 
TSA and for the opportunity to discuss these important issues of 
transportation security. I am pleased to answer any questions you might 
have.

    Mr. Rogers. I thank you, Mr. Pistole. We know you are very 
busy and we very much appreciate your making yourself available 
today to work with us on this topic.
    I would like to recognize myself now for 5 minutes for 
questions.
    Recently I had a meeting with railroad industry and they 
expressed a couple of concerns that they would like help with. 
One was they would like more specific information--more 
concrete and specific information--on the current threats that 
TSA is aware of and to work with them to deal with those 
threats. The other was they would like to have more of a mutual 
relationship with TSA to establish goals that both you and the 
industry feel like would most effectively deal with the threat.
    So could you tell me what, if anything, you have been 
working on to address those two areas, the communication of 
threat information as well as setting of goals with the rail 
industry?
    Mr. Pistole. Thank you, Mr. Chairman.
    Yes, since I started last July we have been looking at not 
only the pushing of the intelligence out to the TSA workforce 
but those partners who--in industry--who are ultimately 
responsible for implementing the safeguards that need to be in 
effect. I have met with both executives and security officers 
from the freight rail and the passenger rail area and there are 
several good developments.
    I am clearly committed to working in a partnership to 
providing the latest intelligence--of course, it is usually 
strategic intelligence; there may be a threat to, for example, 
Amtrak over the Northeast corridor, or there may be something 
about terrorists such as in Madrid or London or Moscow or 
Mumbai, you know, want to attack a rail without any tactical, 
actionable intelligence. But we are pushing out intelligence in 
a classified setting and unclassified, as appropriate, on both 
strategic and tactical.
    One very positive development on your second point about 
the working toward mutual goals is in the area of toxic 
inhalation hazards that are carried on freight rail through 
downtown areas, major metropolitan areas including Washington, 
DC. Really because of the partnership and the initiative of the 
freight industry handling these toxic inhalation hazards, there 
has been a 90 percent reduction over the last 2 years in the 
threat to some of these urban areas. That was done based on the 
initiative of the industry with assistance from us through some 
grants and things like that. So there is a partnership, and 
that is what I am committed to doing.
    Mr. Rogers. So there are not limits, then, on your ability 
to communicate the threat with them?
    Mr. Pistole. No. It is just a question of--obviously if it 
comes from other agencies in the U.S. intelligence community we 
get information from them in the form of what is disseminable, 
and of course they always want to protect sources and methods--
--
    Mr. Rogers. Right.
    Mr. Pistole [continuing]. So they may not say, ``This is an 
intercept from this communication from this person,'' but they 
will say, ``We have intelligence''--and for example, not 
related to freight or rail, but on December 23 we received 
credible intelligence that Al Qaeda in the Arabian Peninsula 
was considering using PETN, the same type of explosive in the 
Christmas day, the underwear bomber, and--and in the cargo 
plot--that same type of explosive in thermoses.
    So they would wrap the PETN around the inner liner of the 
thermos, and so we pushed that information out literally the 
same day that we received it to U.S. carriers. So it is that 
type of actionable intelligence that we are always trying to 
do.
    So the security officers were doing enhanced screening of 
thermoses from that day on. That continues.
    Mr. Rogers. Tell me, shifting gears a little bit--Sheila 
Jackson Lee, a little earlier, mentioned the airports, the 
private--using private contractors and how you had made the 
decision to cease that effort. Tell me about your thought 
process of making that decision.
    Mr. Pistole. So conceptually I see that the TSA should be a 
Federal counterterrorism agency and we are best able to train, 
to deploy, and execute on our mission as a Federal workforce. 
That being said, with the 16 privatized airports I am always 
open to new, innovative ideas and opportunities where we can 
improve either in terms of our efficiencies in how we go about 
doing things for better security or from a business efficiency 
standpoint.
    So some of the reporting was that I have killed the program 
and it is no longer open. That is not true. But I do want to 
see clear, compelling information or evidence that would 
benefit--there has got to be a reason for making a change, and 
if we went beyond the 16 in any large measure it would make it 
more challenging in terms of how we do the immediate--the 
flexibility and agility that I want as part of the Federalized 
workforce.
    Mr. Rogers. Why would it inhibit that flexibility?
    Mr. Pistole. So, for example, the airports that were 
mentioned--San Francisco, Kansas City, seven in Montana, and 
Key West, and Roswell, and other places--I don't have 
flexibility to move those individuals to another airport 
because they are not employed by TSA, they are a private 
contractor. So if there is--well, for example, a disaster like 
Hurricane Katrina, that Congressman Richmond is very familiar 
with, if we have something like--I could not take those for a 
surge capacity to deal with that. Or if there is specific 
intelligence about a particular airport I am limited; I can't 
move those individuals.
    If we have a change in how we go about our protocols, which 
is with the enhanced pat-downs, it is just--it is a more 
cumbersome process, frankly.
    Mr. Rogers. Thank you. My time is up.
    The Chairman now recognizes the gentlelady from Texas for 5 
minutes for questions.
    Ms. Jackson Lee. Thank you very much, Mr. Chairman. I think 
I would agree with Administrator Pistole on the importance of 
the role of TSO officers as part of our fighting terrorism 
team. I think the more we can enhance the training--skill 
training--it is going to be enormously helpful.
    The one point that I would make, and maybe in your remarks 
you might comment on that: No. 1, terrorism doesn't make an 
appointment; and No. 2, we have seen the franchising of 
terrorism, meaning single individuals can be actors that show 
up at airports anywhere around the world.
    But let me ask a question you might incorporate that 
because it has to do with the pat-down procedures and the AIT 
machines and working with flight crews and pilots. In fact, 
Section 1614 of the Implementing Recommendation 9/11 Commission 
called for the implementation of a system to expedite flight 
crews and pilots through security checkpoints. I think you know 
yourself it has been a point of contention.
    Where are you in evaluating that process and will the 
system include a biometric component, as was piloted by TSA at 
BWI? Will you focus on pilots and crew, including flight 
attendants, as the legislation directed?
    I know it was mentioned with Secretary Napolitano, there is 
a Trusted Traveler program that many people are inquiring. This 
is a very full question.
    The other part of it is, I think the Chairman and I agree 
on notice and keeping a dialogue. I mentioned to you that we 
heard about changes in the enhanced process on a television--
local television--and it was concerned about that. Can you help 
us as to why that leaked and why some of us, at least, were not 
aware of that--certainly not the procedures, but at least the 
fact that changes were coming?
    Mr. Pistole. Thank you, Ranking Member Jackson Lee. So, to 
your first point about terrorists not making appointments, that 
is absolutely why we have the layers of security and why we do 
random, unpredictable screening at different airports different 
ways. We have behavior detection officers--the whole range and 
panoply of options as part of the overall continuum for the 
U.S. Government in terms of our counterterrorism strategy.
    You are absolutely right. There are single individuals out 
there who may be inspired by, whether it is Bin Laden, or 
Awlaki, or some other terrorist, who is radicalized on the 
internet and then may go and see how to make a bomb themselves 
without ever communicating with anybody else, which is one of 
the--obviously, the key opportunities to intercept that 
information. So that is one of the key challenges, how do we go 
about doing that?
    That being said, I am very much interested, as I mentioned 
in my opening statement, about using a risk-based approach, 
using the information we already know about every passenger 
through Secure Flight, so it is name, date of birth, and 
gender, so we know whether or not they are on a watch list. But 
then as far as a--some type of a trusted traveler program, if 
individuals are willing to give us more information about 
themselves so we could do, you know, criminal history check and 
other checks then we might be able to afford them a different 
type of security screening.
    So I have several working groups on this. We are looking at 
a number of different options. That is the reason why I decided 
in November to change the screening of pilots, because using a 
risk-based approach, since they are in charge of the aircraft--
frankly, I was not concerned if they had a prohibited item on 
their person because they could put the flight down.
    I worked Egyptair 990 crash Halloween night of 1999 when I 
was with the FBI coming off JFK and crashed off the coast of 
Rhode Island, where the co-pilot intentionally put the flight 
down, killed 232 people. So it is not the physical screening 
that is going to detect that; it is what is in the person's 
head.
    So we are working with the airlines and the pilots' 
associations to expand the three projects that we had called 
Crew Pass--whether it is Crew Pass or not I am agnostic to--but 
to allow them to use an identity-based way of getting to their 
flight as opposed to the physical screening. I talked to the 
Flight Attendants Association also and we are still in 
discussion about that and what that might mean.
    So I am interested in expanding that to not only trusted 
travelers but how we define those. So I would be glad--I would 
like to discuss that further with the subcommittee as more time 
is available.
    Ms. Jackson Lee. One quick question--I don't know if we 
have another opportunity: You have been meeting with 
stakeholders on this 100 percent explosive screening mandate. 
Question quickly is: Why are you doing that? Why do we need 
that input? But more importantly, what happened to the Aviation 
Security Advisory Committee that we asked about last year to 
establish a security advisory committee on air cargo to look at 
some of these issues?
    Mr. Pistole. So the advisory committee has been--the 
working group has been reinstated as of last month. Secretary 
decided that, with Commission Alan Bersin from CBP and myself 
as the co-chairs, and Douglas Smith from the Private Outreach 
Office facilitating that. So that has been reinstituted. Thank 
you for that suggestion and follow-up.
    The outreach for the--in terms of the cargo is--basically, 
I want to make sure that we don't dictate something to industry 
that they are not capable of implementing without burdensome 
cost to them or inability to comply, and so that is why we are 
working very closely with--for example, in the freight area, 
with UPS and FedEx. Post October 29 and the Yemen cargo plot we 
are working very closely with them to say, ``Here is what makes 
them--here is what we can do collaboratively in a 
partnership,'' rather than us just dictating to them.
    Ms. Jackson Lee. I have got other questions, Mr. Chairman, 
but I will yield back. Thank you.
    Mr. Rogers. Yes. We will have another series, at least.
    The gentleman from Illinois, Mr. Walsh, is recognized for 5 
minutes.
    Mr. Walsh. Thank you, Mr. Chairman.
    Administrator Pistole, thank you very much for being here.
    Mr. Chairman, I commend you for so quickly hosting an 
important hearing like this.
    Administrator Pistole, let me refer to just a couple broad 
issues that you raised in your opening statement. You 
emphasized a few times a risk-based approach to passenger 
screening. This is obviously an issue that in the general 
public often breeds confusion.
    Explain, in basic or more complicated terms, what goes into 
that risk-based approach for passenger screening.
    Mr. Pistole. Thank you, Congressman. So right now we are 
not there. So we do use a one-size-fits-all approach, which I 
don't think is either efficient or beneficial for the traveling 
public or for security.
    So what I would like to do is spend more time with those 
that we assess, based on all the information available to us, 
that may be a higher risk--clearly those on any watch list and 
things like that--but do we have other information, either from 
intelligence or information that has been volunteered to us by 
the passenger or that we gleaned perhaps by the behavior 
detection officer noticing something suspicious about a person.
    So that is where we are moving to, and again, I will have 
more information as this year goes on but I am committed to 
doing something this year that would demonstrate a different 
paradigm for how we go about doing passenger screening--who we 
screen, how we screen them.
    Mr. Walsh. It sounds like much of that will be based on 
intelligence gathering.
    Mr. Pistole. So, part of it will be. Again, it is 
something--there are obviously privacy issues, civil liberty 
issues that we want to be very attuned to. But if a frequent 
traveler, for example, is willing to voluntarily provide 
information like they do for other trusted traveler programs, 
like Global Entry coming back into the United States, expedited 
processes through customs, then yes, I am interested in doing 
that and making sure that we can verify the identity of a 
person and then make a risk-based judgment.
    Again, we are not in the risk elimination business. We will 
never eliminate risk; unless people stop flying that is not an 
option. You know, people won't have car accidents, no guarantee 
unless they stop driving. So we don't eliminate risk but we try 
to mitigate risk in an informed fashion, and that is what I am 
committed to doing.
    Mr. Walsh. Leapfrogging to another issue, TSA created the 
Screening Partnership Program. Airports can apply to have 
checkpoint screening done by private contractors, currently 
being done at 16 airports. In your estimation, why was this 
partnership begun to begin with?
    Mr. Pistole. So, as part of the enabling legislation of the 
Aviation Transportation Security Act it was required that five 
airports do a 2-year project to see whether that works. 
Obviously some Members felt strongly that that should be an 
option.
    So that five was done from November 2002 to November 2004. 
Then other airports applied and so we are at the 16, but there 
just--there hasn't been--in fact, there have only been two 
applications since I started on the job last year, one that 
just came in last week after I announced my decision. So there 
hasn't seemed to be that much interest in the program, and it 
is--so that is where it is right now.
    Mr. Walsh. Was the pilot program deemed successful?
    Mr. Pistole. Yes.
    Mr. Walsh. Okay. At the 16 airports where it is currently 
being practiced is it fair to say that it is being fairly 
successful at those as well?
    Mr. Pistole. Yes. Of course, they follow the exact 
protocols, standard operating procedures that we have at the 
other 435 or so airports around the country. They have to use 
the same equipment, the same training, all those things. It is 
just the actual individuals happen to work for a private 
contractor rather than for TSA.
    Mr. Walsh. The expansion beyond 16 airports, that has got 
to come from the airports themselves? Airports apply for them?
    Mr. Pistole. Sure. They apply and then we evaluate. So in 
my announcement I am simply saying I want to see something 
clear and compelling, something substantial that would make 
sense to justify changing from what system is already working.
    Mr. Walsh. Okay. Thank you.
    Mr. Chairman, I yield back.
    Mr. Rogers. Chairman now recognizes the Ranking Member of 
the Full Committee, gentleman from Mississippi, Mr. Thompson, 
for 5 minutes.
    Mr. Thompson. Thank you very much, Mr. Chairman.
    Mr. Pistole, I appreciate your frankness in responding to 
the questions.
    Let's look at air cargo for a moment. As you know, we 
recently received notice that the Department has gone to 100 
percent passenger cargo screening. Have there been any problems 
relative to cargo being interrupted or not delivered on time 
with the implementation of this 100 percent screening?
    Mr. Pistole. No, Congressman. It has worked very 
efficiently through a combination of certified cargo screening 
facilities--about 1,200 of them around the United States--
coupled with the screening done at the airports.
    Mr. Thompson. Well, and I think that is part of closing a 
vulnerability loop that pretty much all of us identify.
    Moving to another area, repair stations. I understand that 
you are in the process of doing some rulemaking and it is--for 
whatever reason we don't have it. Can you give us some idea 
when some of the proposal-making will be completed?
    Mr. Pistole. So, we have the domestic repair stations, 
obviously, but you may be referring to the foreign repair 
stations?
    Mr. Thompson. Yes, foreign.
    Mr. Pistole. On the foreign repair stations we work, 
obviously, with FAA in terms of their certification of those 
facilities as being qualified to the repair work, especially on 
the, you know, on the U.S.-based carriers. So part of the 
challenge is how do we validate that what they are doing meets 
our standards in the United States?
    So in certain countries, you know, their security protocols 
and regimen are just not as thorough, and so that is part of 
the challenge: How do we work with the host government, their 
civil aviation authorities, and their cargo companies to give 
us that highest level of confidence that when they are making 
repairs to aircraft that there is not something nefarious also 
taking place? Part of that is the screening of the mechanics 
who work in those facilities.
    So it is a logistical challenge for us to validate--to 
inspect and validate all those foreign repair stations, so that 
is part of the rulemaking. How can we do that in concert with 
industry?
    Mr. Thompson. So can you give us an idea when you----
    Mr. Pistole. I will have to get back with you on that, sir. 
I don't know off the top of my head.
    Mr. Thompson. Well, and the reason I say it is I think we 
have gone beyond the expected time on that. So if you could get 
back to us we would appreciate it.
    For the record, also, Mr. Chairman, I want to kind of share 
with the committee relative to the collective bargaining issue, 
there are already people who have collective bargaining rights 
within the Department of Homeland Security--our Customs and 
Border Protection Officers, Immigration and Customs 
Enforcement, and the Federal Protective Service.
    But also, within the Federal Government we have the 
Department of Defense Police, United States Capitol Police, 
United States Park Police, United States Marshal Service, 
Department of Veterans Affairs Police, as well as the United 
States Mint Police.
    But also, the whole issue of security and whether or not 
collective bargaining would compromise that security. I would 
like to say that the two officers who brought down the shooter 
at Fort Hood were members of the American Federation of 
Government Employees Union.
    So I think those two heroes deserve recognition, and just 
as a sidebar, they were union members. So I think they did a 
wonderful job, and I hope some of the concerns about collective 
bargaining and belonging to a union can be put to rest because 
of that.
    I guess the only other issue, Mr. Administrator, you talked 
a little bit about it, was implementing with our imaging 
machines the new software. Can you give us how long the pilots 
are expected to go before we can recognize the new results on 
that?
    Mr. Pistole. Yes, Congressman. The testing began in Las 
Vegas last week, Washington National, Reagan Airport, and 
Atlanta Hartsfield this week, and we are doing between 45 and 
60 days of field testing to assess whether the result that we 
had in the lab will be commensurate with what we are actually 
experiencing with real passengers, real screening. It is too 
early to say, other than I know from Las Vegas it is going well 
and we are working through some issues.
    For example, an individual with a ponytail that may show up 
as an anomaly that could be on the machine because it may be 
slightly out of the algorithm that is normal, but that is 
easily resolved with just a visual inspection. So it is part of 
this training for the TSOs to say, ``Okay, how do we resolve 
that?'' and then what it, of course, completely, I believe, 
addresses the privacy issues that have been raised because it 
is just that generic object, that icon of a person, which is 
the same for every passenger, as opposed to individual with the 
area highlighted with anomaly. So it is just a targeted pat-
down of that area which, again, also addresses the pat-down 
issue that some people have concerns about.
    Mr. Thompson. Thank you.
    Yield back.
    Mr. Rogers. Chairman now recognizes the gentleman from 
Alabama, Mr. Brooks, for 5 minutes.
    Mr. Brooks. Thank you, Mr. Chairman.
    A few questions with respect to collective bargaining: If 
the TSOs elect to form a union, who would they be bargaining 
with?
    Mr. Pistole. So, under the construct of ATSA, the enabling 
legislation, it gives TSA administration great discretion, so 
it would be only National-level collective bargaining and it 
would be with the headquarters component of TSA. So again, we 
wouldn't have local collective bargaining, and it would only be 
to processes and procedures as opposed to, you know, individual 
airport issues. So it is at the National level.
    Mr. Brooks. It would be with you ultimately?
    Mr. Pistole. Perhaps ultimately, but hopefully there would 
be, you know, there would be others who would be engaged on a 
day-to-day basis.
    Mr. Brooks. If I understand correctly, the collective 
bargaining would be such things as performance management 
process, awards and recognition, attendance management 
guidelines and processes, and shift bids, and things of that 
nature?
    Mr. Pistole. Correct.
    Mr. Brooks. How do we know that that won't be expanded at 
some point in the future to include many other items?
    Mr. Pistole. Because the enabling legislation gives the 
administrator that sole discretion as to what can and cannot be 
bargained about, and so it is basically like going through a 
cafeteria menu and saying, ``I would like this, I would like 
this, I would like this, I don't want that.'' So what is on the 
tray right now are just those items that I believe do not 
adversely affect security in any way. So I or a successor 
administrator would have to agree to add things to that.
    Mr. Brooks. So if you or your successor were to change the 
scope of what the collective bargaining could be about then it 
would be changed?
    Mr. Pistole. Yes.
    Mr. Brooks. What would the union's remedies be should they 
disagree with the results of the collective bargaining?
    Mr. Pistole. Again, under ATSA, because the broad 
authorities, there is basically--the final decision rests with 
the administrator and there is no appeal, if you will, from 
that.
    Mr. Brooks. Well, traditionally unions have--if collective 
bargaining doesn't go as they wish they have, as you know, 
exercised strike rights, and they have, as you know, exercised 
work stoppages or work slowdowns. How do we have any assurances 
that that would not happen in the United States and disrupt our 
security at airport facilities?
    Mr. Pistole. Again, Congressman, because of those unique 
and broad authorities that ATSA gave the administrator none of 
those possibilities are options. If any employee does not show 
up for work then they would be disciplined. There are no issues 
on that under the collective bargaining.
    All those processes, all those employee engagement things 
will remain in place. Obviously there is not work slowdown or 
stoppage or strike that is allowed, and so an employee could be 
fired for doing those things.
    Mr. Brooks. Well, to some degree it seems that our country 
visited this issue back in the early 1980s with the 
Professional Air Traffic Controllers Organization, as you 
probably recall. President Reagan ultimately had to fire all of 
the PATCO employees en masse. Are you willing to do the same 
thing should any of these TSO workers decide to exercise work 
stoppage or work slowdown or strike should they disagree with 
your determination of the collective bargaining process?
    Mr. Pistole. Well, sure, Congressman. I mean, I won't allow 
anything to happen that will adversely affect the security. So 
if an individual or group of individuals are not performing 
their duties as assigned then--we would go through the normal 
process of discipline and perhaps termination.
    Mr. Brooks. But you are, on the record, willing to 
terminate en masse if need be, should these individuals 
unionize and should they engage in work stoppages or slowdowns 
of any sort?
    Mr. Pistole. Well, I can't envision in this construct 
because it is not traditional collective bargaining, so there 
is no right to do that. So if an individual wants to risk 
losing their job by not showing up or doing a work slowdown 
then they would be subject to the normal disciplinary process, 
which could ultimately result in termination.
    Mr. Brooks. Well, the reason I bring up PATCO is they 
really had no right to do what they were doing. Once Reagan 
ordered them to return to work, they refused to return to work, 
so they were terminated en masse.
    Mr. Pistole. Right.
    Mr. Brooks. I am trying to get a clear yes or no answer 
from you. If there is a violation of the collective bargaining 
agreement, should they engage in a work stoppage or slowdown, 
or should they engage in a strike, are you willing to fire them 
en masse? Yes or no?
    Mr. Pistole. I am willing to, yes.
    Mr. Brooks. All right, thank you.
    Mr. Rogers. Think the gentleman yields back.
    Chairman now recognizes the gentleman from Illinois, Mr. 
Davis, for 5 minutes.
    Mr. Davis. Thank you very much, Mr. Chairman.
    Mr. Administrator, let me just say straight out from the 
beginning that I am in favor of TSA employees having the right 
to organize. However, I also want to feel as safe and secure 
and as protected when I travel, and I also want to feel that 
the American public and all of the public who make use of our 
transportation system can feel the same way.
    I know that in your memorandum relative to collective 
bargaining you stated that surveys have shown that TSA ranks 
poorly in terms of employee morale. How important do you think 
morale is in terms of service, and do you think that the 
organization or the right to organize a union would have a 
positive impact on morale-building?
    Mr. Pistole. Thank you, Congressman.
    As you are aware, last year the OPM survey, in terms of 
best places to work in the U.S. Government, TSA ranked 220 out 
of 226 agencies, and during a number of town halls around the 
country at airports listening to security officers, and then 
their supervisors, and then the management and executives in 
three separate sessions, what I found was a great deal of 
frustration with the lack of uniformity and consistency in the 
way we handle our personnel policies. So that was part of what 
informed my decision and judgment to allow them to vote, 
recognizing that 13,000 of the 47,000 or so are currently 
paying union dues without collective bargaining.
    So I think there is a lot of distraction among the 
workforce with these personnel issues that could be improved 
with better uniformity and consistency. So that is part of my 
reason and rationale for allowing them to vote on whether they 
want to have a union representing them.
    Mr. Davis. I know that individuals are always concerned 
about the possibility of public employees striking, or slowing 
down the work, or in some way disrupting our normal flow of 
activity. What are, perhaps, some of the ways that individuals 
who have grievances or who are dissatisfied--what can they 
actually expect to do to try to get those resolved?
    Mr. Pistole. So, all of the existing processes and 
protocols that we have in place will continue, and so then they 
are encouraged to raise the issue first with their supervisor 
and try to work through that, you know, on a, just a 
partnership basis. If that doesn't work then depending on what 
the issue is and their concern then they have other 
opportunities to raise those. If collective bargaining is voted 
on and a union is elected then they would be able to have that 
representation at a hearing or whatever would come up as a 
result of that issue.
    Mr. Davis. Of course, I come from Chicago, where it is 
obviously quite cold right now, and it is good to be from 
there--that is, away from there. But we are also the 
transportation hub for a region. As a matter of fact, there are 
those who would suggest that we are the transportation center 
of America, and that is because of our strategic location.
    Much of that relates, though, also to surface 
transportation. Are there any new thoughts, provisions, 
guidelines that are being proposed to increase safety and 
security related to surface transportation?
    Mr. Pistole. So, we recognize that surface--particularly 
trains, subways--are vulnerable and have been subjects of 
multiple attacks around the world, as I mentioned earlier. The 
challenge is, how do we shore up those defenses for an 
individual getting either on a passenger train or a subway?
    So we have done several things, partially through the 
Transportation Security Grant Program, where, working with FEMA 
and State and local authorities, we provided over $300 million 
last year to a number of different transportation systems, 
including some of those in Chicago, that use that money for 
several things. One is training of officers; it may be used on 
canine program and training; it may be such things as, even in 
New York City, where last year they were able to hire 120 or so 
officers in NYPD just for enhanced security in the subways. 
There are over 450 subway stations in New York City. That was 
money through the Grant Program.
    We also have VIPR teams, or Visible Intermodal Protection 
and Response teams, which are designed to be visible, 
unpredictable deterrents to those, whether it is here at Union 
Station, or Penn Station in Philly, or New York, or in Chicago, 
and some of that is through grant money and it is all working 
with State and locals. Because we recognize in TSA we can't be 
all things in all places to all people at all times. We can't 
protect against all threats, so we have to work through that 
local partnership, whether State and local police, Amtrak 
police, whoever it may be.
    Mr. Davis. Thank you very much.
    Thank you, Mr. Chairman. I yield back.
    Mr. Rogers. The gentleman yields back.
    My friend and colleague from California, Mr. Lungren, is 
recognized for 5 minutes.
    Mr. Lungren. Thank you very much, Mr. Chairman.
    Thank you, Administrator Pistole, for your service--for 
your service in the FBI and for your service now. Thank you for 
taking some arrows on the issue of full body scanners when that 
came up a little while ago--I meant a few months ago.
    I would just like to ask you, though, about your decision 
with respect to the Screening Partnership Program. You said 
that Members of Congress, when they enacted the legislation, 
wanted a pilot project. Pilot project was conducted. You said 
that the results were good.
    You then said, however, that you made a decision with 
respect to granting collective bargaining rights to the 
employees because you listened to them and you thought it would 
be a good idea that they should vote. But you are denying the 
airports in this country the right to vote. Airports--a number 
of them--want to be involved in this, and you have basically 
now raised the bar and so there has to be a compelling reason. 
Do you have that same standard when you decided with respect to 
collective bargaining--compelling reason?
    Mr. Pistole. So, I think those are two distinguishable 
issues, and----
    Mr. Lungren. Well, my question is, was that standard the 
one you used in collective bargaining--it had to be a 
compelling reason for you to do it?
    Mr. Pistole. No. I did not use the same standard.
    Mr. Lungren. Well, I don't understand why you are doing it 
in this case. You said the surge--you need the flexibility of 
the surge, yet you then testified that only a couple of 
airports have asked for it. There are 400 and some odd 
airports. Are you saying adding two more would complicate your 
situation with respect to flexibility for the surge so that you 
couldn't accomplish your task?
    Mr. Pistole. No. What I am saying is I didn't see a 
compelling reason to add to the existing 16 that would be 
reason to make a change from the existing approach of using 
Federalized workforce in most airports.
    Mr. Lungren. Yes. But when we passed the legislation we 
wanted to see whether that would work. We didn't say there 
would be a compelling reason to go further. I mean, the idea 
was to have a pilot project to see if it would work. You told 
us it worked, but now you are saying it has to be a compelling 
reason.
    I don't understand the bias against the private sector, 
frankly, and that is what it appears to me to be. If you look 
at the experience in San Francisco International Airport, which 
has been outstanding, that airport provided competition to the 
others. When this program first started one of the highest 
rates of injury of the entire workforce in the Nation were 
screeners.
    The private employer in San Francisco decided that instead 
of having all the screeners lift heavy baggage they would 
actually get heavy baggage lifters and pay them at a different 
rate. What happened? They didn't have the same injury rate that 
the public sector did. Then the public sector saw that was a 
good idea and they did that.
    The idea of competition allows those kinds of things that 
can happen. So I am trying to find out why you say you have to 
have a compelling reason.
    You talk about Katrina. How many private sector people 
responded to Katrina? You are telling it that somehow because 
these folks work for a company that makes a profit that that is 
somehow different?
    I mean, I am just trying to get this idea through my head 
as to why you have this thought that we can't have private 
screeners when airports are saying they would like that 
alternative.
    Mr. Pistole. Again, Congressman, I appreciate and I believe 
I understand your concerns and I----
    Mr. Lungren. I am sorry. I don't believe you do, based on 
what you have said.
    Mr. Pistole. Okay. So I hear your concerns. I think if we 
look at, from the perspective of what happened prior to 9/11 
with private screeners there was obviously compelling----
    Mr. Lungren. That is completely different.
    Mr. Pistole. Well, with private screeners versus Federal 
screeners I believe there should be a Federalized workforce----
    Mr. Lungren. Okay, you have answered it then. You believe 
in a Federalized workforce.
    Mr. Pistole. Yes. I am sorry. I mentioned that in my 
comments before you were here, so----
    Mr. Lungren. No, so you believe in a Federalized 
workforce----
    Mr. Pistole. Absolutely.
    Mr. Lungren [continuing]. Rather than one that has private 
folks working at the direction those----
    Mr. Pistole. That is exactly right. That is what I 
testified to earlier; I guess it was before you came in. So 
that is my philosophical approach. I believe it should be a 
Federalized counterterrorism workforce but I----
    Mr. Lungren. Have you worked in the private sector?
    Mr. Pistole. Yes. I practiced law before I became an FBI 
agent.
    Mr. Lungren. Is there something about the private sector 
that makes them unable to participate in the security of this 
country?
    Mr. Pistole. Absolutely not.
    Mr. Lungren. Well, I am astounded, frankly, that you would 
say that, particularly since that is contrary to what the 
Congress indicated they wanted done. They wanted a pilot 
project to see if it works. It has worked and you have said 
under--in your testimony it has worked. But despite that, you 
say we should not allow it to go further because you believe it 
ought to be a Federalized workforce.
    Mr. Pistole. I am saying I am open to the possibility and 
that is why I continue the 16, and if an airport comes in and 
can demonstrate there is a compelling reason to change because 
they can do things better then I am open to that. I am not 
ruling that out, Congressman.
    Mr. Lungren. What is your bias against private sector 
people being involved in the security--85 percent of our 
critical infrastructure is owned by the private sector. Are you 
suggesting we need to Federalize 85 percent of the critical 
infrastructure of this country because somehow only Federal 
workers can do the job?
    Mr. Pistole. So we have had just the two airports come in 
since I have been the administrator requesting this, and there 
hasn't been a rush to knock down the door to have airports 
submit application to do this----
    Mr. Lungren. Would you believe that they might be 
discouraged by your comments?
    Mr. Pistole. I am just saying up until the time of my 
announcement there--well, actually there had only been one, and 
then one came in after the announcement, I think to try to just 
demonstrate----
    Mr. Lungren. Hardly encouraging, is it--what you have said 
so far?
    Mr. Pistole. I don't know how they would take it, but----
    Mr. Lungren. Well, I know how they would take it. They 
would say that you have said that it ought to be a Federal 
screeners workforce, that you have to find a compelling reason, 
which means you have given them a higher bar, and you have 
given all sorts of reasons that you believe it is going to 
interfere in your flexibility to respond to a potential 
disaster. Frankly, I don't understand what you say.
    Philosophically I disagree with you. I think the Congress 
disagreed with you. Frankly, I am very disappointed because I 
think you are basically saying you are going to set a standard 
that is not in the law because you have, for whatever reason--
for believing that those in the private sector can't do as good 
a job as those in the public sector, and I am sorry to hear 
that.
    Mr. Rogers. Gentleman yields back.
    The Chairman now recognizes the gentleman from Louisiana, 
Mr. Richmond, for 5 minutes.
    Mr. Richmond. Thank you, Mr. Chairman.
    Mr. Pistole, just very quickly, can you touch for me on 
rail security? I know it is probably in many districts, but our 
rail lines go through neighborhoods, they are close to schools, 
they are close to big sporting venues and a number of other 
things, and my--one of my concerns has always been what happens 
if the rail line is used as a weapon? They share bridges with 
our automobiles many times, so can you touch on that for me?
    Mr. Pistole. Sure, Congressman. I share that concern, 
recognizing the vulnerabilities and the access to rail that is 
not necessarily associated with aviation. As I mentioned, with 
the attacks around the world against rail--particularly 
passenger rail--and also just the partnership that we have both 
with freight and passenger rail in terms of their actions that 
they can take without Government regulation but just to say it 
just makes good business sense for us to reduce our risk.
    The example I gave about the 90 percent reduction in the 
toxic inhalation hazard risk through urban areas by industry's 
own initiative, that is an ideal model for me where industry 
does that voluntarily. It is not a regulation; it is because it 
is good business sense. So we would closely with, whether it is 
the Amtrak police, or other rail police, addressed the security 
chiefs of all the major rails, both freight and passenger, at 
several different settings. What we hope to ensure is that 
partnership where we are pushing out intelligence so that they 
can make informed judgments as to what actions they should take 
to protect their rail.
    Mr. Richmond. My last question would just be a general 
question on the future of the TWIC card and the program. Where 
are we and where are we headed with this?
    Mr. Pistole. So, we have about 1.8 million TWIC cards at 
this point. I could check on that number to make sure, but I 
think that is right. It is--not where I would like it to be. It 
has taken longer than it should and there have not been 
successes that I would like to see in terms of trying to ensure 
the best possible safety of ports by those who have access to 
the most critical areas.
    I am focused on that and want to make some improvements in 
both the timing and the roll-out. It has taken too long, 
frankly.
    Mr. Richmond. Thank you for your time.
    I will yield back the remainder of mine.
    Mr. Rogers. Gentleman yields back.
    Speaking of cold weather, Mr. Davis, our next questioner is 
from Minnesota, so we can get colder than Illinois.
    The gentleman, Mr. Cravaack, is recognized for 5 minutes.
    Mr. Cravaack. I thank you, Mr. Chairman, and in my hometown 
it was 31 degrees below zero this morning. I love Minnesota. I 
do. Good for ice fishing right now.
    Thank you. I appreciate you coming here today, sir. 
Appreciate your service to this country. I do have a couple--
being an airline pilot, the machines that I walk through 
routinely always seem to grab my interest.
    Last week the TSA began testing new software known as the 
Automated Target Recognition. This is used to current--is the 
current advanced imaging technology, AIT, machines. The new 
software will enhance passenger privacy by eliminating the 
passenger-specific images instead of the auto-detect potential 
threat items on generic outline of a passenger instead of the 
very vivid images that we have seen all over.
    The TSA is conducting a pilot of the new software at Las 
Vegas International Airport, Hartsfield Jackson Atlanta 
International Airport, and Washington Reagan Airport as well. 
Have we gotten any feedback from passengers regarding this 
program so far?
    Mr. Pistole. Just from Las Vegas, Congressman. Welcome to 
the committee. It is something that we are getting positive 
feedback because the passenger actually sees the image now, 
along with the security officer, as opposed to a separate 
security officer seeing it. So I think it gives the passengers 
greater confidence.
    If there is something, for example, on the right hip then 
they can say, ``Oh, yeah. I forgot to take my handkerchief out 
of my pocket,'' or something, as opposed to, you know, a 
complete pat-down or something to try to resolve that anomaly. 
So it has actually increased the through-put some, and thus so 
far so good.
    Mr. Cravaack. Yes. TSA should be commended for listening to 
the public on that, so that is great.
    My concern is, though, can this technology make sure it can 
see any size of any object on the passenger from the top of his 
head, tip of his toes, full screen, without getting into 
detail?
    Mr. Pistole. So, I appreciate that last caveat. There are 
challenges, and obviously the Christmas day bomber presented 
one of those challenges, so that is why we are field testing 
this. It is actually the same equipment, just a different 
depiction of the image.
    So we have--we believe it is the best available technology 
to detect those types of nonmetallic bombs, such as 
Abdulmutallab had on Christmas day. But it is not foolproof. I 
mean, there is no 100 percent guarantee silver bullet here. It 
is just the best technology available today and we are always 
trying to improve that.
    Mr. Cravaack. Okay. Currently the new software is being 
tested for millimeter wave AIT machines, and when do you expect 
the software to be piloted with backscatter AIT machines?
    Mr. Pistole. So, the manufacturer is working on the auto-
detect function and the algorithms for that and we are thinking 
that will be later this summer with lab testing and then field 
testing in the fall probably.
    Mr. Cravaack. Obviously if the pilot project does go well 
do you plan to put the use of the machines in every one of our 
airports, or do we have the--obviously the funding is--
obviously will be key there.
    Mr. Pistole. Funding is a key, yes. As much as the budget 
will allow we would convert the existing--it is a simple 2-hour 
conversion so it is minimal cost. So it is, you know, as soon 
as we are able to do that, assuming we get the good results we 
are hoping for.
    Mr. Cravaack. Excellent. Thank you very much, sir, for your 
time.
    I yield back, sir.
    Mr. Rogers. Gentleman yields back.
    The Chairman now recognizes himself for a second series of 
questions.
    Currently transportation workers carry a number of 
different identification credentials. Among these, but not 
limited to this, are the TWIC card, which we have already 
talked about, commercial driver's license, hazardous material 
endorsement, and the Free and Secure Trade card. These 
credentials all have a separate application process and require 
separate background checks, many of which are redundant.
    Stakeholders in the transportation industry continue to 
express their strong concern to me that we need to address 
these redundancies. Can you tell me what you can do to give 
them some relief?
    Mr. Pistole. Thank, Mr. Chairman. Yes, I agree with you, 
and I agree with industry that there are too many cards with 
too many applications for too little return on that process.
    I don't have much in terms of positive news on that. 
Obviously it is larger than just TSA or even the Department, 
and so working through a number of areas on universal rule of 
having, ideally, one card that would give access. The question 
is, if it is a person who has access to a port then what are 
the applications there if they don't need access to an airport, 
if they don't need access to a commercial driver's license with 
a HAZMAT endorsement.
    There are different applications for different people; 
there are very few people who would have all of those needs of 
access, such as a sensitive area of the airport. So there is 
some basis for it, but I think it has become much too 
cumbersome and I just look forward to working with you and the 
committee on trying to streamline those processes.
    Mr. Rogers. Well, I am glad you offered that comment, 
because one of the other things that I am doing with the 
various sectors of the transportation industry is inviting them 
to give me proposed rule changes, whether it is a regulation 
that, you know, they find is redundant or it is just overly 
burdensome. I would urge you to--we would tender those to you 
to consider us working to get rid of redundant, unnecessary 
rules.
    Mr. Pistole. Absolutely.
    Mr. Rogers. I don't know if you have had anybody in your 
Department looking at existing regulations, things that you 
could streamline, but if you have I would urge you to do that 
because it is becoming problematic for a lot of the different 
sectors.
    My colleagues on the committee would be disappointed in me 
if I didn't bring up canines, so I am going to do that. As you 
know, I am a zealous advocate for the use of canine explosive 
detection assets, and I would like for you to tell us--you 
mentioned earlier the use of those. Tell me where you are with 
that sector of your layered security.
    Mr. Pistole. So, I am a big proponent, not surprisingly, of 
the canine program both in the actual detection of explosives 
but also as a deterrent effect to those possible terrorists who 
might be deterred by the presence of a canine and handler, 
regardless of whether that canine is actually a bomb-sniffing 
dog or not.
    I am also very heartened by the initiative through Auburn 
University in terms of the Vapor Wake technology. The ability 
for a dog trained properly to not just hit on the package, or 
the backpack, or whatever may be containing the explosives, but 
can pick up the vapor from that as somebody has walked through. 
So, for example, in Moscow the question would have been if 
there had been a Vapor Wake-trained dog in that area, even 
after the person walked through, that dog would have likely 
been able to pick up on something like that.
    So it is something that I am very interested in. Appreciate 
your support in terms of what we are doing at Auburn, and we 
have a number of additional opportunities to deploy those dogs 
as the budget will allow.
    Mr. Rogers. Well, and that is what I am hoping we are going 
to see in the President's budget next week. I know the 
Secretary has expressed her desire to see those assets more 
utilized within various sectors of our security system.
    As you know, the facility that you have at Lackland is what 
is the money that has been suggested by the Secretary is spent 
to expand that facility. It is going to be at its maximum 
capacity. It is only going to generate 275 things a year. We 
are going to have to have a second site at least for the 
production of those assets as well as their training.
    So I am hoping that you are working with the Secretary to 
that end and I can assure you I want to be a partner because we 
need those in every airport; we need them in every rail 
station. They are just a very low-cost, very effective asset.
    My time is up.
    I now recognize the gentlelady from Texas for another 
series of questions.
    Ms. Jackson Lee. Thank you very much, Mr. Chairman.
    Administrator Pistole, I, too, add my appreciation for the 
time spent with us today. I am going to give some bullet 
questions, not aimed at you. But in any event, if I can get 
some quick answers I would appreciate it.
    You need to answer the original question that I had about 
the notice to us, Members, Ranking Member, at that time 
Chairwoman on the changes that occurred back then, but let me 
skip and not go all the way back to November, but the changes 
that occurred in the immediate last 2 or 3 weeks that I called 
about and saw first on our local TV program that changes were 
coming to the enhanced process, and it was aired on our local 
station in Houston. I would like to have better communication, 
and so if you would answer that when I give you these series of 
questions.
    First of all, I want to reinforce and thank you. I think 
your thought processes on the SPP were thoughtful, and I think 
it is important to acknowledge, again, that you found that 
security operations at airports with private screeners cost the 
Government more money--and we are cost-conscious but we don't 
want to be cheap on security, and I think that is important.
    I also believe, as I asked my earlier question, that it is 
important that we have an integrated system of Federal 
screeners that allow the agency to quickly react to terrorists 
and threats in a more secure way. I also believe the connection 
of intelligence is so very important and I want to congratulate 
you for getting the high number of security-cleared 
individuals.
    Might I also specifically note appreciation for Colonel 
Testa. That is in my jurisdiction and she has done a great job.
    Let me publicly say on the record, Colonel Testa, I look 
forward to touring the cargo space. You have been inviting me, 
and I hope to be there shortly.
    But I want to follow up very quickly, and these--now these 
are the quick questions: Status report on the TSA repair 
station. We have been working on that--repair station security. 
We have been working on that a long time, and if I can just get 
a one or two update.
    On the international front, after Yemen we rushed overseas 
to establish the--and also after the Christmas day bomber 
incident--the last point of departures in foreign countries, 
and I would like to know what we have done, you know, what 
about our agreements, how we in Congress can be helpful, what 
tools or resources would help you to achieve increased 
passenger baggage and cargo security at foreign airports? I 
know some of those are international agreements, but we need to 
know how we can ramp it up and move a little bit more faster.
    I have always been concerned in making sure that America 
and the American Government--the Federal Government--looks like 
America, and I know my friends agree with me. So I am very much 
interested in a targeted, forceful, meaningful approach to 
diversify the executive and non-executive levels and TSA, and 
working with people from diverse backgrounds--I asked that 
question of the Secretary--including people of the different 
faiths, religions, particularly the Muslim community.
    I am also interested in homegrown outreach for Hispanics, 
African Americans, Asians, and Native Americans, and of course, 
in Texas, Anglo Americans--a diverse workforce that reflects 
everyone. So I am hoping someone was writing those questions 
down, if I can get some bullet answers from you, again, 
quickly. Thank you.
    Mr. Pistole. Thank you, Madam.
    I wasn't sure whether you wanted those bullet answers right 
now or----
    Ms. Jackson Lee. Yes. I really want----
    Mr. Pistole. So, let me--on air cargo, with Yemen. I was in 
Yemen 5 days after the plot was uncovered and worked with the 
Yemeni authorities, the country team, very briefly, fully 
engaged with industry to ensure that any cargo coming from 
Yemen, once we lifted the cargo hold, which we put into effect 
immediately, would have the best screening possible. We are 
still continuing that process and can give you further 
updated----
    Ms. Jackson Lee. In writing--but are you working fast on 
these international agreements? That is what I am talking----
    Mr. Pistole. Yes. Of course, working with ICAO, the 
International Civil Aviation Organization, World Customs 
Organization, International Maritime----
    Ms. Jackson Lee. Repair station?
    Mr. Pistole. Repair stations: As I mentioned earlier, I 
don't have specific dates. I will have to get back to you on 
that on those proposed----
    Ms. Jackson Lee. Very important.
    Mr. Chairman, as you well know it, this whole idea of what 
happens when airplanes are exposed overseas and need repairs is 
a key issue that a good colleague, the gentleman from Rhode 
Island, had begun working on. So we really need an extensive 
answer on that. Maybe you----
    Mr. Pistole. I will get that to you.
    Ms. Jackson Lee [continuing]. Briefing.
    Mr. Pistole. Diversity, I think you know TSA has one of the 
most diverse workforces not only in DHS but in the Federal 
Government and--figures on that----
    Ms. Jackson Lee. Let me get that in writing because you say 
that all the time and what you are talking about is TSO 
officers and I am talking about at the Executive level. That is 
extremely important and I want to speak with the Chairman on 
this professional development issue.
    When I travel through what I hear is bright, intelligent 
folk with no place to go. So we need to sort of get an 
understanding of how we advance their--give them the 
opportunity to be professionals and move forward. So I really 
want to ensure that.
    You have never gotten to me about this notice situation 
about hearing things on the television as opposed to both the 
Chairman and myself being able to hear----
    Mr. Pistole. Right. I apologize for that, Ranking Member 
Jackson Lee, if there was something--I am drawing a blank on 
what that was----
    Ms. Jackson Lee. What it was is what we are talking about, 
the AIT. Our news reported, before I even knew anything about 
it, that you were changing.
    Mr. Pistole. For the ATR testing?
    Ms. Jackson Lee. Yes.
    Mr. Pistole. Okay.
    Ms. Jackson Lee. This is now 2011, and I am not going back 
to November.
    Mr. Pistole. Right. Okay. So, obviously I want to keep you 
and the Chairman fully informed, and when I don't do that then 
that is on me to do a better job. So I should do that.
    Ms. Jackson Lee. I would appreciate it. I just want to say, 
it is not only the Chairman that mentions canines. He has been 
a leader on this issue and I look forward to you really, 
hopefully, pumping that up with good, talented, healthy animals 
that really are a great asset.
    Mr. Chairman, I hope we will be able to visit, again, as we 
have done in the past. With that, I thank you for your 
indulgence and I think I will yield back at this moment. Thank 
you.
    Mr. Rogers. Gentlelady yields back.
    Gentleman from Minnesota is recognized for a second series 
of questions.
    Mr. Cravaack. Thank you, Mr. Chairman.
    Understanding that--being in the military and also being an 
airline pilot I understand there is a best way to go about 
things is layers of security because there is, quite frankly, 
there are layers of threats. There are not silver bullets, as 
you said. It starts basically from when a person purchases a 
ticket, to when they arrive at the airport, to when they check 
in their bags, or not, to when they go through a screening 
point, to when they actually go on board the aircraft.
    So in recent terrorist attacks in the Moscow airport, 
unfortunately this was conducted in a non-secure area, and that 
is why these threats--these layers of security are so 
important. I was just wondering what your thoughts are. Has the 
TSA increased security for the non-secure areas? One of the 
things that I think are promising, especially I have gone 
through it several times myself, is through human intelligence, 
human interaction we can discern a lot of these threats before 
they actually enter a, you know, more of a secure area. So I 
was just wondering what your thoughts are----
    Mr. Pistole. Yes. Couldn't agree more, Congressman.
    I believe strongly in behavior detection, the observation 
of individuals, and we have a number of officers trained in 
that regard. I would like to increase that in terms of the 
training and the capabilities, basically to upgrade that even 
more because I think that has a good return on investment.
    As far as the non-secure areas of the airport, such as in 
Moscow, we work closely with the airport police in all the 
major airports, you know, the 28 largest airports, and then, of 
course, the smaller airports, which may or may not have a 
dedicated police force. So we try to do that in conjunction 
with them, recognizing their law enforcement authorities and 
their ability to protect and deter somebody coming in from the 
curb side, although our behavior detection officers are in 
the--outside of the sterile area, in the non-secure area, 
looking for people going to checkpoints, it is much an 
opportunity, I think, for the airport police and others to 
detect in conjunction with us.
    So given our responsibilities, particularly at the 
checkpoint and beyond, and then of course the Federal air 
marshals and things like that on the flights, I look forward to 
working with the subcommittee on additional things we can do. 
So there is a whole range of things that we can do and I have 
outlined that in a paper to the Secretary and we have provided 
information to the Russian authorities who asked, ``Well, what 
can you do in terms of things such as vehicle checkpoints?''
    LAX, Los Angeles International, from time to time they will 
do random vehicle checkpoints before you ever get to the curb. 
That is something that can be done.
    You can have more VIPR teams walking and just, again, it is 
a visible, unpredictable deterrence. There is a whole range of 
opportunities, basically just limited by what the resources 
are, you know, the budget and things like that.
    Mr. Cravaack. I couldn't agree with you more. Because of 
the layer of threats we need layers of detection and 
intervention as well.
    Mr. Pistole. Agreed. Good way to present it.
    Mr. Cravaack. Also, following your confirmation hearing you 
commented on the shift from airplanes to ground transportation 
and you viewed that--against rail and subways are equally 
important, and I couldn't agree more as well. I wouldn't want 
your job.
    As the threats against aviation are important we also have 
to take a look at our ground transportation, and the resources 
allocated to the aviation security efforts account for roughly 
80 percent of the TSA's budget. Do you see that moving at all, 
or----
    Mr. Pistole. Obviously working with this committee and the 
rest of Congress, very interested in the opportunities that we 
would have to do more in surface transportation because I 
believe there are some vulnerabilities there that are just 
inherent in the construct of being able to get on a train 
without any security screening.
    Again, we do VIPR teams in some high-profile places, 
whether it is Union Station, Penn Station, New York, and things 
like that, but just the nature of the system means more 
vulnerables. The rails themselves are vulnerable in certain 
respects, and I could go into a lot of detail from that 
perspective.
    So I agree, more could and should be done. It is a question 
of, at this point, do we take something away from aviation 
security to address that, and I am reluctant to do that given 
terrorist interest in--continuing interest in aviation plots.
    Mr. Cravaack. Thank you, sir.
    I have just one last question, and it is generic. I don't 
expect too much detail, but what keeps you awake at night?
    Mr. Pistole. The unknown that--and this is based on my 
nearly 27 years at the FBI--the unknown that somebody we have 
not identified being able to do something and we miss it.
    Mr. Cravaack. Thank you, sir.
    I yield back the rest of my time.
    Mr. Rogers. Gentleman yields back.
    The Chairman now recognizes the gentlelady from California, 
Ms. Speier, for 5 minutes.
    Ms. Jackson Lee. Chairman, if you would just yield, let me 
welcome Ms. Speier to the committee and thank her for her 
leadership.
    We announced earlier and we knew you were detained.
    Thanks, Mr. Chairman.
    Ms. Speier. Thank you, Mr. Chairman.
    Thank you, to the Ranking Member.
    I was actually in Oversight and Government Reform so I 
snuck out of that committee to come and say hello to Mr. 
Pistole. I would like to explore the issue of foreign repair 
operations. You know, we are struggling with how we can create 
more jobs in this country and meanwhile some of our carriers 
are off-shoring the repair work of, you know, many of their 
facilities.
    So we have mechanics that are now out of work. That is one 
issue.
    But the more crushing issue, and the one that I think you 
are going to be most concerned about, is the fact that in a 
briefing that I received just last week the security at these 
foreign locations is very, very little. I was shown pictures of 
how they actually, you know, check people in, and it is, you 
know, basically with a card that you can pick up anywhere. It 
wouldn't take a rocket scientist to get one of those cards to 
get into the area to stow away a bomb or some bio warfare that 
could create serious problems for us.
    So No. 1, what steps are you taking to beef up the security 
that these airlines are evidently not pursuing in these foreign 
venues? Second, is there some thought to bringing these jobs 
back to the United States so we can have a greater sense of 
security and more jobs here in the homeland?
    Mr. Pistole. So, thank you, Congresswoman, and welcome to 
the committee--subcommittee.
    Yes, clearly the issue of the foreign repair stations is 
significant. I won't address the job issue too much because I 
am focused on the security aspects. But clearly the carriers, 
at times, need those repair stations based on whatever has 
happened in terms of maintenance or repairs that are needed.
    You have precisely identified what the challenges are. 
There is a great inconsistency around the world as to the 
security of those locations, as you were briefed on last week. 
Our challenge is how we can go about inspecting those with any 
sense of assurance and confidence that they are doing what they 
should be doing in terms of screening the employees, the 
mechanics who work there. Are they screening the material that 
they bring in so there is not something bad in there that they 
are actually putting on a plane that would not be found, 
whether it is a cargo bomb or something else?
    So our challenge is, we simply don't have the resources to 
do what I would want to offer to the American people and the 
airlines as a high level of confidence in the security of those 
operations. So we work with the host governments, with the 
civil aviation authorities, bilaterally. We also work through 
ICAO, the International Civil Aviation Organization, which sets 
minimum standards.
    But it really comes down to how do we trust but verify? So 
we have to have some amount of trust in our foreign partners, 
but the question of verification and validation and it is what 
they are doing, and I can't give you a PODS report on that 
today to say, ``Yes, every single foreign repair station meets 
the standards that we would like to see here in the United 
States.'' So that is something that we are working on but it is 
just not there yet.
    Ms. Speier. Well, let's not even talk about foreign 
carriers. Let's talk about U.S. carriers who have off-shored 
their mechanical repair work in El Salvador and around the 
world. I mean, we do have some authority over them, do we not?
    Mr. Pistole. Sure, yes----
    Ms. Speier. This is United Airlines that I am speaking of 
right now.
    Mr. Pistole. Okay. Yes. So obviously we work with United, 
we work with the facilities that were the foreign repair 
stations to basically assess whether their standards are up to 
ours, and if they are not then we can say, ``You are not 
allowed to do that repair work.'' So it is incumbent upon not 
only the repair station but the airline and the host government 
and to the aviation authority to ensure that is the case.
    My concern, as much, in being able to, as I mentioned, to 
validate what they are doing----
    Ms. Speier. Well, I guess what I am asking you then is I 
want you to assess the security in El Salvador at the repair 
facility that United runs there because it appears to be just 
incomplete and lax. If you do not have authority to force them 
to beef-up their security there then we need to make sure you 
have that authority and then any other penalties that should be 
imposed.
    Mr. Pistole. Thank you, ma'am. That is obviously something 
we do in conjunction with the FAA in terms of their 
certification of those repairs facilities, so it is a 
partnership with FAA.
    Ms. Speier. So you will report back to the committee and 
me?
    Mr. Pistole. Absolutely.
    Mr. Rogers. Gentlelady yields back.
    The Chairman now recognizes gentleman from California for a 
second series of questions.
    Mr. Lungren. Thank you very much.
    Mr. Administrator, earlier I mentioned that I thank you for 
taking the arrows on the issue of advanced imaging, or we used 
to call them full body scanners. I would like to ask you about 
that.
    For years I have suggested we just have an ``I don't care'' 
line. For those of us who don't care we get in a line and go 
through that and have the full body scanner, and if people have 
a concern they can go through the regular one. As a recipient 
of an artificial hip and an artificial knee I get a chance to 
get up close and personal with your screeners every time I fly, 
and if you want anybody to testify as to the newly aggressive 
enhanced pat-downs I can testify to that.
    I am very strongly in support of getting these enhanced 
imaging--the various types of advanced imaging facilities out 
there. I was wondering, what has been the decision-making as to 
which airports have it and which do not? For instance, 
everybody talks about Reagan. I had the chance to go through 
Reagan one time, and believe me, that was a much better 
experience than having the pat-down.
    When I fly in and out of Dulles, which seems to be a pretty 
important airport for this National capital region, and they 
have just completed a new terminal; they have just completed a 
new entire floor for people going through the screening 
process. Yet I have not seen a single enhanced image piece of 
equipment there.
    Is there a reason why, in this National region--we don't 
have any at Dulles but----
    Mr. Pistole. So, it may have been a while since you 
traveled through there. We do have----
    Mr. Lungren. Yesterday--3 days ago.
    Mr. Pistole. Okay. Yes, we do have AIT at Dulles. I don't 
know the exact number.
    So it has been in the process the last several months being 
deployed, so it may just be that checkpoint. I am not sure----
    Mr. Lungren. Well, I would love to find it because I will 
use it.
    Well, I guess my bigger question is, how do we decide which 
airports get them as we are moving them on? It seems to me from 
your public statement you are committed to that and----
    Mr. Pistole. I am.
    Mr. Lungren [continuing]. You believe in them----
    Mr. Pistole. I do.
    Mr. Lungren [continuing]. And you believe now that we can 
even do a better job of assuring people of their privacy 
concerns----
    Mr. Pistole. Absolutely.
    Mr. Lungren [continuing]. Even though I believe we have 
done a pretty good job in the past----
    Mr. Pistole. I think we have also.
    Mr. Lungren [continuing]. But what is the process for 
deciding? Is that an airport request, or----
    Mr. Pistole. Yes. So it is several factors, and one is the 
airport authority's configuration, their readiness, basically, 
to--because the machines do take up more real estate, more 
space than the walk-through metal detectors. So in some 
airports we actually have to reconfigure the checkpoint, and so 
those airports, just speaking generally now--generally those 
airports that have the space and the capability and the 
interest and willingness to take those machines, that is where 
we went first, and then those that we--where we have to do 
build-out, there are costs involved--to the Federal Government, 
to the airport, to the airlines, all those issues make it more 
complicated so it is a longer process.
    But eventually, you know, we have got 2,200 checkpoints 
around the country. You know, the budget doesn't allow----
    Mr. Lungren. Right.
    Mr. Pistole [continuing]. For every checkpoint, but many of 
those are very small airports.
    Mr. Lungren. Now that I recall, it was when I left 
Sacramento I did not. When I went through the one at Dulles 
2\1/2\ weeks ago and I set off the detector and I went through 
the pat-down, and after I got the pat-down they said, ``You 
should have asked for the machine,'' no one told me there was a 
machine.
    Mr. Pistole. Okay.
    Mr. Lungren. It might be helpful that they give an 
opportunity for people to use the machine if they want to get 
the machines----
    Mr. Pistole. Right.
    Mr. Lungren [continuing]. But I would be happy to testify 
for anybody as to the less-invasive privacy aspects of going 
through one of your new pieces of equipment as opposed to 
having the pat-down because your people are doing a very, very 
good job of that.
    Let me go and talk to you about the secure traveler 
program. Are we checking for things or are we checking for 
people?
    Mr. Pistole. So, right now we are checking for prohibited 
items, but where I want to move to is assessing the person, and 
that is what I was talking about earlier in terms of using more 
of a intelligence, risk-based approach. So clearly I think 
there are many opportunities, which I would like to go into 
detail with the subcommittee at a later date----
    Mr. Lungren. Okay.
    Mr. Pistole. I am still working internally, but I think 
there are some very good options that we will see later this 
year.
    Mr. Lungren. For several years a number of us have been 
arguing that it makes no sense to make the pilots go through it 
when they control the aircraft later on.
    Mr. Pistole. That is why I changed that policy in 
November----
    Mr. Lungren. Right. I know it is politically incorrect to 
think you would treat Members of Congress any differently and I 
appreciate that. But I would just posit a question: If you have 
a group of people who are permitted, under the laws of the 
United States, to have the highest classified briefing you can 
possibly have--that just seems strange to me that we are--maybe 
you have some intelligence you will share with us later that 
finds that Members of Congress are a suspect class, but all I 
can say is your people do a very good job of making sure that I 
know that they do a thorough examination of me every time I go 
through----
    Mr. Pistole. I appreciate that, and I will note, 
Congressman, that I just had a briefing by GAO, who does all 
kinds of covert testing and beats us every time because of 
their innovative techniques and things, but they said that this 
most recent test they did in January they found it to be the 
most thorough and the best. So I think the subcommittee would 
be interested in some of these ways forward that we can use a 
risk-based approach and taking more what we know about the 
person--doing some pre-screening, basically--to go to more of 
an identity-based screening as opposed to the full physical 
screening----
    Mr. Lungren. Well, your folks have done a very good job on 
every test I have made. Every time I have forgotten hair spray 
they have gotten it, and I have had to throw it out, so I 
appreciate that.
    Mr. Pistole. So we have 16 AIT at Dulles now, so yes, it is 
being deployed.
    Mr. Lungren. Thank you very much.
    Mr. Rogers. Gentleman yields back.
    I have no further questions and the Ranking Member has told 
me she has no further questions so we will close the hearing.
    I want to thank you for your time and your answers. I want 
to thank the Members for their questions. We will hold the 
hearing open for 10 days. Members may have written questions 
they want to submit to you and we would ask that you get those 
back in a timely manner.
    As you know, I have already given you four questions from 
the AAAE----
    Mr. Pistole. Yes.
    Mr. Rogers. I would urge your timely response to those. I 
hope that you will work in a collaborative effort with them to 
address your concerns and theirs as well as the other sectors 
of transportation we talked about here today.
    Mr. Pistole. Thank you, Chairman Rogers.
    Mr. Rogers. With that, the hearing is adjourned.
    [Whereupon, at 11:39 a.m., the subcommittee was adjourned.]


                            A P P E N D I X

                              ----------                              

  Questions From Ranking Member Sheila Jackson Lee for John S. Pistole
    Question 1a. Section 1614 of the ``Implementing Recommendations of 
the 9/11 Commission Act'' called for the implementation of a system to 
expedite flight crews--pilots and flight attendants--through security 
checkpoints. In addition to TSA's own piloting of access control 
technology and a processes, there are some air carriers and airports 
that are testing proprietary systems for expedited crew access to 
sterile areas. Where is TSA in evaluating the implementation of Section 
1614, and, in this vein, has TSA looked at proprietary systems proposed 
by air carriers to expedite crews at specific airports?
    Answer. The Air Line Pilots Association, International (ALPA) and 
the Air Transport Association (ATA) recently received approval from TSA 
to test a new crewmember screening system. This enhanced identity and 
employment verification system for crewmembers will make airport 
checkpoint screening more efficient for both TSA and the participating 
crewmembers.
    This new system is the outgrowth of an existing program. In 2007, 
ALPA presented to TSA the first version of an alternate screening 
method called the Crew Personnel Advanced Screening System (CrewPASS). 
CrewPASS has been used successfully at three East Coast airports for 
almost 3 years. This enhanced process leverages current technology to 
provide an efficient and cost-effective solution.
    Once fully implemented, any TSA-regulated U.S. airline that wishes 
to connect to this enhanced system will be able to do so, and any 
airline pilot employed by one of those carriers will be able to 
participate in the program. Testing is projected to begin at a limited 
number of airports later this year. The tests will run for 
approximately 90 days and, if successful, will expand to additional 
U.S. airports.
    Implementation of this system is an example of an innovative 
partnership between TSA and its stakeholders. It is the culmination of 
on-going discussions precipitated by an earlier TSA announcement of its 
intent to modify checkpoint screening procedures for crewmembers while 
it developed a crewmember identity verification system.
    Question 1b. Will TSA-certified crew access systems include a 
biometric component as was piloted by TSA at BWI airport?
    Answer. Following the successful testing of the ALPA/ATA proposed 
system, TSA will review options regarding incorporation of a biometric 
component.
    Question 1c. Will TSA only focus on pilots or all crew, including 
flight attendants, as the legislation directed?
    Answer. The ALPA/ATA proposed system is initially limited to 
flightdeck crewmembers because a secure database of other crewmembers 
does not currently exist. At the conclusion of this 90-day pilot, TSA 
will evaluate the program and determine appropriate next steps.
    Question 1d. Will TSA have a role in the implementation of a 
Trusted Traveler program, such as Registered Traveler?
    Answer. TSA Administrator John S. Pistole is committed to ensuring 
TSA operates as a risk-based, intelligence-driven agency. TSA is 
continuing to evaluate alternative security protocols for passengers 
that could result in expedited screening for low-risk populations, 
while maintaining high security standards. However, the feasibility and 
utility of any such protocols would need to be fully evaluated and 
vetted prior to eventual pilot testing and possible implementation.
    Question 2. As TSA meets with air carriers and other stakeholders 
in order to obtain feedback from industry in meeting the statutory 
requirement that cargo on in-bound passenger aircraft be screened for 
explosives, please update the committee on the status of the Aviation 
Security Advisory Committee (ASAC). Will the ASAC be used a forum for 
stakeholder input on aviation security matters in 2011?
    Answer. During the Secretary's efficiency review of the Department 
of Homeland Security's (DHS) advisory committees, charter renewal 
actions were placed on hold and the charter for the Aviation Security 
Advisory Committee (ASAC) subsequently expired on April 3, 2010. The 
review re-affirmed the need for the ASAC, and the Transportation 
Security Administration (TSA) is in the process of re-establishing the 
committee. It is anticipated that the ASAC will meet in 2011 to provide 
advice and recommendations for improving aviation security measures.
    Question 3. In 2009, TSA issued a Notice of Proposed Rulemaking on 
repair station security. When will this rulemaking be finalized for 
repair station security and has TSA engaged with stakeholders, 
including labor unions, since the issuance of the NPRM, in crafting a 
final regulation?
    Answer. Due to the complexity of this particular rulemaking, the 
Transportation Security Administration (TSA) does not have a firm date 
for publication of the Final Rule; however, we anticipate publication 
to occur well within calendar year 2011.
    For the last several years, TSA has been working to implement a 
regulation for the inspection of Federal Aviation Administration (FAA)-
certificated repair stations located inside and outside of the United 
States. Throughout the rulemaking process, TSA has engaged the repair 
station operators and associations through meetings and site visits, 
and has incorporated their input into the Final Rule.
    In addition, TSA has conducted public review sessions in the United 
Arab Emirates, Singapore, and Arlington, VA, where representatives from 
more than 90 industry stakeholder associations were provided with the 
opportunity to review the proposed Aircraft Repair Station Security 
Program.
    Since issuing the NPRM in 2009, TSA has not engaged in any direct 
discussions with labor unions. However, comments submitted by the 
Transportation Trades Department, AFL-CIO and Transport Workers Union 
of America, AFL-CIO were addressed and considered in crafting the Final 
Rule.
    Question 4. According to media reports, in November 2010, Delvonte 
Tisdale allegedly stowed away on an aircraft that departed Charlotte 
Douglas International Airport (CLT). Has TSA investigated how a 
perimeter breach at CLT could have occurred with respect to this 
incident? Has the Federal Security Director at CLT re-evaluated and 
assessed airfield access controls in the wake of the Tisdale incident? 
Has headquarters TSA evaluated security operations at CLT in the wake 
of the Tisdale incident?
    Answer. In the wake of the November 2010 incident involving the 
death of Delvonte Tisdale, the Transportation Security Administration 
(TSA) conducted a thorough investigation into potential security issues 
at Charlotte Douglas International Airport (CLT). Most recently, on 
March 13-14, 2011, a TSA Headquarters-directed team, made up of both 
field and Headquarters regulatory/compliance-based personnel, arrived 
at CLT to conduct a security assessment of the perimeter and its 
overall integrity. This assessment included a review of CLT-secured 
areas such as the airport ramp and taxi areas near the terminal; the 
air operations area (AOA), including the airport runway and perimeter 
areas; access control measures; cargo facilities; and the terminal. 
Additionally, the investigation consisted of a comprehensive review of 
the 2006 and 2010 Joint Vulnerability Assessments, the CLT Airport 
Security Program, and other databases and documents; these reviews were 
followed by physical inspections during both daylight and evening 
hours.

                                 <all>

</pre></body></html>
